<html>
<title> - HAITI: FROM RESCUE TO RECOVERY AND RECONSTRUCTION</title>
<body><pre>[Senate Hearing 111-755]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-755
 
           HAITI: FROM RESCUE TO RECOVERY AND RECONSTRUCTION

=======================================================================


                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 28, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                  U.S. GOVERNMENT PRINTING OFFICE
62-792                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Dobbins, Hon. James, director, International Security and Defense 
  Policy Center, National Security Research Division, RAND Corp., 
  Washington, DC.................................................    14
    Prepared statement...........................................    18
    Response to question submitted for the record by Senator 
      Robert P. Casey, Jr........................................    44
Farmer, Dr. Paul, U.N. Deputy Special Envoy for Haiti, Boston, MA     6
    Prepared statement...........................................     9
Francois, M. Rony, M.D., incoming director of public health, 
  State of Georgia, Atlanta, GA..................................    21
    Prepared statement...........................................    24
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     4

        Additional Prepared Statements Submitted for the Record

Christopher J. Dodd, U.S. Senator from Connecticut...............    31
Kirsten E. Gillibrand, U.S. Senator from New York................    43
U.N. Human Settlements Programme, UN-HABITAT, submitted by 
  Christopher W. Williams, Washington, DC........................    44
National Haitian America Elected Officials (NHAEON), submitted by 
  State Representative Marie St. Fleur, Boston, MA...............    46
International Housing Coalition (IHC), Washington, DC............    47
Habitat for Humanity International submitted by Chris Vincent, 
  director, congressional relations/international affairs, 
  Washington, DC.................................................    48
InterAction, A United Voice for Global Change....................    50

                                 (iii)



           HAITI: FROM RESCUE TO RECOVERY AND RECONSTRUCTION

                              ----------                              


                       THURSDAY, JANUARY 28, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:18 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Cardin, Casey, Shaheen, 
Lugar, and Corker.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    We're going to start the hearing, and I think Dr. Farmer is 
not very far away.
    Let me just say I apologize to all for the need to shift, 
but five votes have been scheduled seriatim, starting at 10:30. 
And so, had we begun this hearing as it had been scheduled, at 
10 o'clock, we literally would not have had a hearing. So, I 
appreciate everybody's ability to move this and advance it.
    And I think what we will try to do is compress the hearing 
into--we actually have a grace period of about 15 minutes 
beyond the 10:30, so we have until about 10:45 or so, and that 
ought to give us an opportunity to be able to get through both 
the testimony and the questions adequately. I wish we weren't 
pressed, but the reality is, we are.
    Needless to say, today Haiti is reeling in the aftermath of 
what may well be the worst humanitarian catastrophe that the 
Americas have ever seen. Well over 100,000 dead, and more dying 
every day. An estimated 1 million Haitians are displaced. Large 
parts of Port-au-Prince and several outlying cities are 
flattened. An already weakened infrastructure has basically 
collapsed.
    The numbers simply don't explain the horrors that millions 
of Haitians are living through. Instead, we begin to understand 
Haiti's tragedy through stories and images: a tent city next to 
a crumbled Presidential Palace; a Haitian child dividing one 
rationed meal among eight members of his family; a 70-year-old 
woman rescued from the cathedral in Port-au-Prince 7 days after 
the earthquake, too weak to stand, but strong enough to sing 
church hymns as she was carried out on a stretcher; and only 
just this morning, the photographs of the young 15- or 16-year-
old girl being pulled out alive, just a little more than 2 
weeks after the earthquake.
    It's impossible not to be moved by the suffering, but also 
by the resilience and the dignity of the Haitian people.
    It's our duty, as neighbors, and, frankly, as fellow human 
beings, to respond to this tragedy. And that responsibility 
does not end with the rescue. We need to help Haiti to rebuild 
in a way that leaves Haiti better off and better prepared were 
any future natural disaster to strike.
    Since the quake, America and the world have rushed in with 
as much assistance as Haiti's infrastructure has permitted, 
quickly deploying search-and-rescue teams, food, water, medical 
equipment, shelter, and several thousand troops.
    We're also well aware of the suffering and the heartbreak 
that has affected the hardworking Haitian-American community. 
Indeed, my home State of Massachusetts is home to the third-
largest Haitian community in the United States, and we must do 
what we can to help.
    There's been a tremendous outpouring of generosity from 
Americans and from the international community. People have 
opened their wallets and their homes. We've been working very 
closely--my staff, myself--with dozens of families in 
Massachusetts to expedite the adoptions of Haitian orphans that 
were already underway before the earthquake.
    We're also working to make sure that our government's 
relief efforts provide for the thousands of Haitian children 
who were orphaned or displaced by the earthquake, within the 
safeguards of the formal process that protect the children from 
trafficking.
    I want to commend Dr. Shah, Secretary Clinton, and 
countless other Americans inside government and out who have 
made an impressive, even remarkable effort that all of us can 
be proud of.
    I'd particularly like to honor U.S. diplomat Victoria 
DeLong, who lost her life, then to recognize the enormous loss 
suffered by the United Nations. The U.N. has made a massive 
contribution in Haiti over the years. And when the earthquake 
struck, they lost many outstanding people on the ground. We 
offer our profound gratitude and our condolences to the U.N. 
and to the families of the deceased.
    We've also felt that tragedy personally in Massachusetts, 
with the loss of Britney Gengel. And I know, personally, the 
agony that her parents, Leonard and Cheryl Ann, have gone 
through, first in trying to find out what her fate might be, 
and now in trying to recover their daughter's body.
    The task before all of us remains far from over. First, we 
must continue the enormous ongoing effort to meet Haitians' 
immediate need for food, water, shelter, electricity, and 
emergency medical care. So far, thanks to U.N. peacekeepers and 
U.S. forces, the security situation has allowed these efforts 
to proceed in general calm.
    Second, we need to use this humanitarian crisis to begin 
reversing the poverty and environmental degradation that 
plagued Haiti long before this tragedy. We cannot be satisfied 
to simply restore Haiti to the unsustainable conditions of the 
past.
    On January 11, Haiti was already the poorest country in the 
Western Hemisphere. Even before the quake, there were 380,000 
orphans in Haiti. Most Haitians lived on less that a dollar a 
day. One in eight children died before their fifth birthday, 
and 40 percent were not enrolled in school. A hundred and 
twenty thousand Haitians are HIV-positive, and rural Haitians 
have been plagued by malnutrition.
    So, we need to help Haitians build a sustainable 
foundation--physical, social, economic--for a stronger and more 
stable society. This is a chance for Haitians to re-imagine 
their country as they rebuild it. We must use every opportunity 
to help Haiti improve its living standards.
    Haiti has duty-free, quota-free access to the U.S. market, 
a large pool of low-cost labor, and a large, hardworking North 
American diaspora sending money home. Haiti was actually making 
steps toward recovery when the earthquake struck. And violent 
crime was declining.
    Haiti's progress will be more sustainable if its government 
takes a serious look at longer term challenges, such as 
environmental devastation and runaway population growth.
    Third, Haiti's recovery must belong to the Haitian people. 
They may need our help today, but they must be empowered to 
build their own future down the road. President Rene Preval and 
Prime Minister Jean-Max Bellerive need to lead the national 
recovery, and civil society and democratic institutions must be 
protected and nurtured. Haiti's long-term success depends on a 
government that can inspire its people, work with the private 
sector, attract investment, and marshal resources to provide 
basic services, security, and rule of law.
    Some have said that Haiti is a lost cause. Based on all I 
know of the Haitian people--and I've learned a lot more in 
recent days--I couldn't disagree more. Even in the darkest 
hours after the earthquake, Haitians who were poor to begin 
with and then lost everything, reached out to help each other. 
They searched for missing neighbors. Strangers provided comfort 
and shelter and shared their meager food.
    Looting and violence here and there may make headlines, but 
it is the Haitians' determination and decency in the face of 
disaster that will make the country's future. Schools may have 
collapsed, but Haitian commitment to education will not. 
Elisabeth Debrosse Preval, an economist and the President's 
wife, urged Haitian people to stand up again and move forward. 
As they do, American will be there to help.
    We are fortunate to have with us today three very 
impressive witnesses with deep knowledge of Haiti and the 
challenge that we and the Haitian people face.
    Paul Farmer is the U.N. deputy special envoy for Haiti. I'm 
proud to call Paul a friend. He's been a vital source of 
insight and information for me directly and through my 
daughter, Vanessa, who was Paul's student at Harvard Medical 
School and continues to work closely with him.
    James Dobbins, no stranger to this committee, is director 
of international security and defense policy at RAND. And he 
has written extensively on Haiti and on the challenges of 
reconstruction.
    And finally, Dr. Rony Francois, who emigrated from Haiti to 
Florida in 1979 to study medicine, can speak directly to the 
enormous challenge--public health challenges--that Haiti faces. 
He is the incoming director of public health for the State of 
Georgia.
    And we welcome all of you and thank you for being here 
today.
    Let me turn to Senator Lugar, and then we'll welcome your 
testimonies.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Well, thank you, Mr. Chairman.
    And I'd like to thank you again for calling this important 
hearing on the rescue, recovery, and longer term reconstruction 
efforts in Haiti.
    The unimaginable devastation caused by the earthquake and 
the ongoing aftershocks since January 12, 2010, is, as you 
pointed out, one of the worst natural disasters to confront the 
Western Hemisphere in modern history. Nearly 3 million people 
have been affected, and authorities estimate that more than 
150,000 people have perished. My thoughts, and those of all of 
us in this hearing, are with those who have suffered loss.
    The crisis situation in Haiti has the potential to 
destabilize security in the Caribbean. The social instability 
in Haiti represents a critical concern for the Dominican 
Republic and could have far-reaching implications if 
deteriorating conditions induce a mass exodus of Haitians by 
land and sea.
    Immediate action by the United States to provide emergency 
assistance to Haiti was clearly warranted. The heroic efforts 
of American relief workers and the international teams of first 
responders are deeply inspiring. I commend the administration 
and many of my Senate colleagues who have worked to advance 
policies and legislation that will hasten Haiti's recovery.
    Last week, I called on the Secretary of Homeland Security 
to grant 18 months of Temporary Protective Status for Haitian 
immigrants already residing in our country and to grant visa 
parole for orphans in the midst of adoption proceedings with 
American parents. The Secretary's quick action on both 
provisions will ensure that many vulnerable children are united 
with loving families and that all people of Haitian descent in 
the United States are in a position to contribute to Haiti's 
recovery.
    A senior economist at the World Bank has projected that 
Temporary Protective Status could generate an additional $360 
million in remittances sent to Haiti in 2010--on top of the 
more than $1 billion transferred each year since 2006.
    I am working with Senator Dodd on a bill that would 
encourage the IMF to provide debt relief to Haiti and ensure 
that IMF gold sale surpluses are used for low-income countries, 
including Haiti. The legislation also would explore ways to 
invigorate economic activity in the country by adjusting United 
States-Haiti trade agreements.
    Despite strong support from the United States, sustained 
international participation in Haiti is vital for its recovery. 
It is especially important that the international community 
provide governance assistance to the Haitian people.
    The failure and corruption of past Haitian governments 
contributed greatly to the stress felt by the Haitian people 
before the earthquake, and the limitations of the current 
government constrain the prospects for recovery. These harsh 
realities, compounded by the significant loss of life that has 
weakened the government and other institutions in Haiti, compel 
the international community to consider creative measures.
    Because of the devastation, Haiti's condition approximates 
that of a failed state. We should consider an enhanced role for 
the United Nations in the daily operations of the Haitian 
Government until the country is stable and less dislocated. 
This would include the provision of food and shelter, 
reconstruction activities, budgetary affairs, security, and 
other aspects of governance vital to the Haitian people. The 
United Nations has the credibility and capacity to perform this 
role. The relationship between the United Nations and Haitian 
Government should be a consensual, cooperative arrangement that 
preserves Haitian participation in decisions, while ensuring 
that the resources and expertise of the international community 
are brought to bear on the daily problems of Haiti. If the U.N. 
plays an increased security and recovery role, I believe that 
Haitians would more quickly gather their bearings and begin to 
rebuild their lives and their country.
    A top priority must be developing and implementing a plan 
to resettle temporarily the millions of internally displaced 
people, for whom Port-au-Prince has little to offer. Adequate 
food, water, and shelter must be delivered in earnest to these 
resettlement areas.
    I would also encourage the Obama administration to 
coordinate Haitian-American volunteers into HTAs--Hometown 
Associations--small groups of volunteers in the United States 
who are linked with their former hometowns and institutions in 
Haiti. Members of HTAs can serve as interpreters, support the 
temporary resettlement of refugees, and provide assistance to 
Haitians who are evacuated to the United States for medical 
treatment not available on the island.
    The Haitian-American community is eager to be involved in 
the recovery of Haiti, but much greater coordination is 
required to put their skills to full use. Our government should 
explore ways to partner with NGOs and existing social 
networking platforms like Facebook and Twitter to facilitate 
this coordination. Organizing HTAs will increase our ability to 
leverage the flow of the more than $1 billion remitted from the 
United States.
    I look forward to the insights of our very distinguished 
panel of witnesses and innovative recommendations on strategies 
for moving Haiti forward.
    I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Lugar. I want to 
welcome Senator Shaheen here today on the occasion of her 29th 
birthday. [Laughter.]
    Senator Shaheen. Thirty.
    The Chairman. Thirty. Thanks for being truthful, we 
appreciate that. [Laughter.]
    And, again, delighted to welcome all the members of our 
panel.
    Dr. Farmer, we have such admiration for the work you've 
been engaging in with Partners in Health, in Haiti, in Africa, 
and elsewhere, and for your leadership, and for all of you who 
have been contributing to this dialogue on Haiti. So, we look 
forward to your testimony this morning.
    We'll begin with Dr. Farmer, then Mr. Dobbins, and then Mr. 
Francois.

  STATEMENT OF DR. PAUL FARMER, U.N. DEPUTY SPECIAL ENVOY FOR 
                       HAITI, BOSTON, MA

    Dr. Farmer. Thank you, Mr. Chairman. And thank you for 
having me back here and--to testify.
    I'm speaking, as you mentioned, as the U.N. Deputy Special 
Envoy for Haiti--and President Clinton, as you know, is the 
special envoy--but also as a physician and teacher from Harvard 
who has worked for over 25 years in rural Haiti. Today, my hope 
is to do justice, not by chronicling the events of the last 2 
weeks, which are already well known to you, but by attesting to 
the possibility of hope for the country and of the importance 
of meaningful investment and sustainable development in Haiti.
    That said, I will not pretend that hope is not, at times, 
difficult to muster. As I was coming here into this city, I 
asked my colleagues, including Dr. Kerry, ``What would it be 
like to look around you and see every Federal building 
collapsed--the White House, the House--the Dirksen Building, 
all of them?'' And that's of course what we've seen in Haiti.
    And as I was flying up here from Port-au-Prince to 
Montreal, headed to a conference on coordinating donor 
responses to this massive earthquake, I did the painful math in 
my head and counted close to 50 colleagues, friends, and family 
members who had lost their lives in the space of a minute.
    The afternoon of the earthquake, several of my colleagues 
from Partners in Health in the U.N. were, ironically, in Port-
au-Prince for a meeting about disaster risk reduction. Partners 
in Health, through its Haitian sister organization, provides 
health care to the rural poor. This meeting was in Port-au-
Prince, as I said. By focusing on training and employing local 
talent, we have grown a great deal over the years. We are 
currently serving a population of well over 1.2 million, and 
count 5,000 employees, most of them community health workers.
    Of course, not all of our colleagues survived, but the vast 
majority of our colleagues did survive and have spent the last 
2 weeks working day and night to relieve the staggering 
suffering of the wounded and displaced.
    President Clinton, our colleagues, and I have been in the 
cities of Port-au-Prince, Jacmel, Leogane, as well as in the 
less effective Central Plateau in Artibonite Valley. 
Everywhere, we have seen great acts of bravery and solidarity.
    In addition to the heroism of friends and colleagues, I 
would like to note for the record the dignity and patience of 
the long-suffering Haitian people. During a visit last week to 
Haiti's largest teaching hospital, which shares a campus with 
the ruins of the nursing and medical schools, President Clinton 
remarked that no other people in the world would be so patient 
and calm in the face of so much suffering. This observation, 
though accurate, must not be misunderstood. People in Haiti are 
afraid, not only for their options and futures, but, quite 
simply, for their safety.
    A few nights ago, we sat in empty medical wards. Hearing of 
impending aftershocks, the patients bolted outside with their 
IVs dangling from their arms. They refused, as have so many, to 
sleep inside the building, any building, but instead found 
tarpaulins and sheets, and lay down in the open courtyard near 
the hospital. This scene has repeated itself throughout the 
country and is a reminder of the logistics challenges facing 
all those who would be involved in the provision of shelter, 
clean water, and health care.
    The relief efforts focused now on addressing the initial 
wave of devastation of the earthquake will soon turn to a new 
set of concerns. Hastily cobbled-together camps are at risk of 
outbreaks of cholera and other waterborne disease. The Haitian 
Government has wisely proposed avoiding huge camps, which would 
be difficult to manage. But, we must hasten our efforts to get 
tents, tarpaulins, and latrines or composting toilets to Haiti.
    It is humbling to see the relief effort be so slow, in 
large part because the delivery of services was so weak before 
the quake. Now, we must do much more to get food and water to 
people every day for some time to come.
    Creating safe schools and safe hospitals, even makeshift 
ones, is a known need in rebuilding society. And storm-
resistant housing must also be a carefully considered priority, 
since there is little time before the rainy season. Students 
need to be back in school. The planting season cannot be 
missed, and requires fertilizer, seeds, and tools.
    How will we fund such settlements, ongoing relief, the 
sewing of seeds, the reconstruction that must follow? Major 
pledges have been made by the United States, Canada, Japan, 
Spain, Brazil, the European Union, the Inter-American 
Development Bank, the World Bank, and others. Indeed, most 
countries have responded to Haiti's plight. Even in faraway and 
once afflicted Rwanda, a group of community health workers 
making less than $200 a month have been able to pull together 
$7,000 in donation for their colleagues in Haiti. This is but a 
small portion of the billions needed, but hard to surpass as an 
eloquent testimony of human solidarity.
    I will make two points, Mr. Chairman. Even when such 
resources are available, the task before us will be extremely 
difficult. Medical jargon can be helpful here. Today, Haiti is 
facing what we would term in medicine an acute-on-chronic 
problem. Before January 12, the country was already facing 
long-term challenges in public health and education, and an 
unemployment rate of over 70 percent, and a majority of its 
population living on less than $2 a day. Food and water and 
security were already large problems. Does this catastrophe 
present a chance for all of us to have a sounder, more 
solidarity-based relationship with Haiti, or is it yet to be 
another chapter in a long jeremiad of suffering and the abuse 
of power?
    In my last testimony here, at Senator Lugar's invitation in 
2003, I expressed concern that the latter possibility was 
likely--Senator Dodd was there, as well--was likely, given the 
policies at our time. Today, I would like to conclude that we 
are opening up the possibility for a very different way of 
interacting with Haiti.
    That said, let me say that I have in my life attended only 
two donor conferences, both about Haiti. The last one was in 
Montreal; I just came from Port-au-Prince to Montreal to here. 
The first one was in Washington, less than a year ago. The 
results are noteworthy and worrisome. Despite $402 million 
pledge to support the Haitian Government's economic recovery 
program--this was after the 2008 hurricanes, which destroyed 15 
percent of the country's GDP--it was estimated that--by my 
coworkers at the U.N.--that a mere $61 million had been 
disbursed. In the Office of the Special Envoy, we've been 
tracking the disbursement of pledges. Eighty-five percent of 
the pledges made a year ago are undisbursed. Many of us worry 
that if past is prologue, Haitians themselves will be blamed 
for this torpor. But, as we have argued before, there are 
serious problems in the aid machinery, and these have 
contributed to the delivery challenges on the ground.
    The aid machinery currently at work in Haiti keeps too much 
for overhead for its operations and still relies overmuch on 
NGOs or contractors who do not observe the ground rules we 
would need to follow to build Haiti back better. The fact that 
there are more NGOs per capita in Haiti than in any other 
country in this hemisphere is, in part, a reflection of need, 
but also, in part, a reflection of overreliance on NGOs, quite 
divorced from public health and public education sectors.
    Haiti will need the contractors and mission groups and 
NGOs. And indeed, I speak on behalf of a very large health NGO. 
But, we need to create new ground rules, including a demand to 
create local jobs for Haitians and on building an 
infrastructure that is crucial to creating sustainable economic 
growth and, ultimately, reducing Haiti's dependence on aid. In 
other words, what we need is a way of building back better that 
strengthens governance, but also strengthens the Haitian 
economy to provide for the needs of its people, especially the 
vast majority of Haitians who are desperately poor.
    There is an opportunity not only to build Haiti back 
better, but to build a more functional and beneficial aid 
structure. Over the past two decades, U.S. aid policies have 
see-sawed between embargos and efforts to bypass government, 
including elected ones not to Washington's taste.
    In building back Haiti, a credible body that has been 
working in Haiti, such as the Inter-American Development Bank, 
could help house a recovery fund. We need to commit funds and 
also to disburse them. To quote Jeff Sachs, ``Haiti does not 
need a pledging session, it needs a bank account to fund its 
survival and reconstruction.'' Such an account could be 
managed, as the chairman just noted, with partners such as the 
U.N. and, of course, Haitian leadership, and would work openly 
and directly with partners to design and implement recovery 
plans coordinated at central and local levels. The effort must 
include a comprehensive post-disaster needs assessment, which 
should be supported by the United States and other partners.
    Might such plans work? In some of the darkest moments of 
the last 2 weeks, when the incapacity and lack of coordination 
of institutions on the ground was repeatedly revealed to me, I 
thought often of Rwanda and what happened there in 1994. As a 
physician and teacher at Harvard, I've been lucky to work with 
Partners in Health, the Clinton Foundation, and the Government 
of Rwanda in rebuilding health infrastructure in three of the 
last four districts that lacked central hospitals. They are now 
all built. As in rural Haiti, this has been a very positive 
experience. It has resulted in thousands of jobs for Rwandans, 
and has created broadly accessible health care infrastructure, 
all with a modest pricetag, compared to traditional aid 
contractors.
    If such progress can be made in Rwanda, which boasts strong 
leadership, but in 1994 was the poorest country on the face of 
this Earth, then one hopes it can be made elsewhere.
    Our mission must be--and I will close, because I've gone 
over--to note that if there's any silver lining to this cloud, 
it is that we can push job creation. It is a strange irony that 
supporters of economic assistance to Haiti are now obliged to 
shill for cash-for-work programs for the quaint notion that 
people should be paid for their labor.
    Let us be honest; it is absurd to argue that voluntarism 
and food-for-work programs will create sustainable jobs. But, 
if we set the ground rules on reconstruction correctly, we will 
be able to create sustainable jobs.
    As a doctor, I can tell you that bad infrastructure and 
thoughtless policy are visible in the bodies of the poor, just 
as are the benefits of good policy and well-designed 
infrastructure. In my almost 30 years in Haiti, I have 
witnessed many political interventions and multiple coups. They 
have been unpleasant, even if their effects pale in the shadow 
of what we are now experiencing.
    Many people look at Haiti in despair, as the chairman 
noted. They say that aid is wasted, that there is no hope for 
this country. I would answer them by saying that this is not 
true. If we focus the reconstruction efforts appropriately, we 
can achieve long-term benefits for Haiti. Putting Haitians back 
to work and offering them the dignity that comes with having a 
job and its basic protections is exactly what brought our 
country out of the Great Depression.
    Thank you very much.
    [The prepared statement of Dr. Farmer follows:]

 Prepared Statement of Dr. Paul Farmer, U.N. Deputy Special Envoy for 
                           Haiti, Boston, MA

    Thank you for inviting me to testify today before the Senate 
Committee on Foreign Relations. I speak as the U.N. Deputy Special 
Envoy for Haiti--President Clinton, as you know, is the Special Envoy--
and also as a physician and teacher from Harvard who has worked for 
over 25 years in rural Haiti. Today, my hope is to do justice to Haiti 
not by chronicling the events of the past 2 weeks, which are well known 
to you, but also by attesting to the possibility of hope for the 
country, and of the importance of meaningful investment and sustainable 
development in Haiti.
    That said, I will not pretend that hope is not at times difficult 
to muster.
    As I was flying from Port-au-Prince to Montreal on Monday, headed 
to a conference on coordinating responses to the massive earthquake, I 
did the painful math in my head and counted close to 50 colleagues, 
friends, and family members who had lost their lives in the space of a 
minute.
    The afternoon of the earthquake, several of my colleagues from 
Partners In Health and the U.N., were, ironically, in Port-au-Prince 
for a meeting about disaster risk reduction. Partners In Health, 
through its Haitian sister organization, provides health care to the 
rural poor. By focusing on training and employing local talent, we have 
grown a great deal over the years. We are currently serving a 
population of well over 1.2 million and count about 5,000 employees, 
most of them community health workers.
    Of course, not all our colleagues survived. But the vast majority 
of them did survive, and they have spent the last 2 weeks working day 
and night to relieve the staggering suffering of the wounded and 
displaced. President Clinton, our colleagues, and I have been in the 
cities of Port-au-Prince, Jacmel, and Leogane, as well as the less-
affected Central Plateau and Artibonite Valley. Everywhere we have seen 
acts of great bravery and solidarity.
    In addition to the heroism of friends and colleagues, I would like 
to note for the record the dignity and patience of the long-suffering 
Haitian people. During a visit last week to Haiti's largest teaching 
hospital, which shares a campus with the ruins of the nursing and 
medical schools, President Clinton remarked that no other people in the 
world would be so patient and calm in the face of so much suffering. 
This observation, though accurate, must not be misunderstood. People in 
Haiti are afraid not only for their options and futures, but still 
quite simply for their safety. A few nights ago, we sat in empty wards: 
hearing of impending aftershocks, the patients bolted outside with 
their IVs dangling from their arms. They refused, as have so many, to 
sleep inside the building--any building--but instead found tarpaulins 
and sheets, and lay down in the open courtyard.
    This scene has repeated itself throughout the country and is a 
reminder of the logistics challenges facing all those who would be 
involved in the provision of shelter, clean water, and health care. The 
relief efforts, focused now on addressing the initial wave of 
devastation from the earthquake, will soon turn to a new set of 
concerns. Hastily cobbled-together camps are at risk of outbreaks of 
cholera and other waterborne disease. The Haitian Government has wisely 
proposed avoiding huge camps, which will be difficult to manage, but we 
must hasten our efforts to get tents, tarpaulins, and latrines or 
composting toilets to Haiti. It is humbling to see the relief efforts 
be so slow--in large part because delivery of services was so weak 
before the quake. Now we must do more to get food and water to people 
every day for some time to come. Creating safe schools and safe 
hospitals, even makeshift ones, is a known need in rebuilding a 
society, and storm-resistant housing must also be a carefully 
considered priority since there is little time before the rainy season. 
Students need to be back in school; the planting season cannot be 
missed and requires fertilizer, seeds, and tools.
    How will we fund such settlements, ongoing relief, the sowing of 
seeds, and the reconstruction that must follow? Major pledges have been 
made by the United States, Canada, Japan, Spain, Brazil, the European 
Union, the Inter-American Development Bank, the World Bank, and 
others.\1\ Indeed, most countries have responded. Even in far away and 
once-afflicted Rwanda, a group of community health workers making less 
than $200/month have been able to pull together $7,000 in donations for 
their colleagues in Haiti. This is but a small portion of the billions 
needed, but hard to surpass as an eloquent testimony of human 
solidarity.
    Even if adequate resources are available, the task before us will 
be extremely difficult. Medical jargon, though at times arcane, can be 
helpful here. Today, Haiti is facing what we would term ``acute on 
chronic'' problems. Before January 12, the country was already facing 
huge long-term challenges in public health and education, the 
unemployment rate over 70 percent, and a majority of its population was 
living on less than $2 a day.\2\<SUP>,</SUP>\3\ Food and water 
insecurity were already huge problems.\4\ Does this catastrophe create 
a chance for all of us to have a sounder, more solidarity-based 
relationship with Haiti? Or is it to be yet another chapter in a 
jeremiad of suffering and abuse of power? In my last testimony here, in 
2003, I expressed concern that the latter possibility was likely given 
our policies at that time. Today I will spend my time focusing on the 
potential for an entirely reconsidered relationship between the two 
oldest independent countries in the Americas: Haiti and my own.
    Let me offer, as one example of the difficult relations between 
Haiti and the international community (and an echo of the 19th century 
machinations I discussed in my last testimony before this committee), 
the donor conference I attended here in Washington last April. It was 
one of only two donor conferences I have ever attended, the second 
being in Montreal earlier this week. The results of the first are 
noteworthy and worrisome: despite $402 million pledged to support the 
Haitian Government's Economic Recovery Program, when the country was 
trying to recover from a series of natural disasters resulting in a 15-
percent reduction of GDP, it is estimated that a mere $61 million have 
been disbursed.\5\ In the Office of the Special Envoy, we have been 
tracking the disbursement of pledges, and as of yesterday we estimate 
that 85 percent of the pledges made last year remain undisbursed.
    Many of us worry that, if past is prologue, Haitians themselves 
will be blamed for this torpor. But as we have argued before, there are 
serious problems in the aid machinery, and these have contributed to 
the ``delivery challenges'' on the ground.\6\ The aid machinery 
currently at work in Haiti keeps too much overhead for its operations 
and still relies overmuch on NGOs or contractors who do not observe the 
ground rules we would need to follow to build Haiti back better. The 
fact that there are more NGOs per capita in Haiti than in any other 
country in the hemisphere is in part a reflection of need, but also in 
part a reflection of overreliance on NGOs divorced from the public 
health and education sectors.\7\
    Haiti will continue to need the contractors, and the NGOs and 
mission groups, but more importantly we will need to create new ground 
rules--including a focus on creating local jobs for Haitians, and on 
building the infrastructure that is crucial to creating sustainable 
economic growth and ultimately reducing Haiti's dependence on aid.
    In other words, what we need is a way of ``building back better'' 
that strengthens governance but also strengthens the Haitian economy to 
provide for the needs of its people, especially the vast majority of 
Haitians who are desperately poor. There is an opportunity not only to 
build Haiti back better, but to build a more functional and beneficial 
aid structure. Debt forgiveness is needed to ease the financial drain 
which would otherwise hinder economic recovery and growth. Over the 
past two decades, U.S. aid policies have seesawed between embargoes and 
efforts to bypass governments, including elected ones not to 
Washington's taste.\8\
    In building back Haiti, a credible body that has been working in 
Haiti such as the Inter-American Development Bank could help to house a 
recovery fund. We need to commit funds and also to disburse them. To 
quote Jeff Sachs, ``Haiti does not need a pledging session; it needs a 
bank account to fund its survival and reconstruction.'' \9\ A Such an 
account should be managed in collaboration with partners, the U.N., 
and, of course, Haitian leadership, which would work directly and 
openly with partners to design and implement recovery plans coordinated 
at central and local levels. The effort must include a comprehensive 
post-disaster needs assessment, which should be supported by the U.S. 
and other partners.
    Might such plans work? In some of the darkest moments of the last 2 
weeks, when the incapacity and lack of coordination of institutions on 
the ground was revealed repeatedly, I have thought often of Rwanda and 
what happened there in 1994. As a physician and teacher at Harvard, I 
have been lucky to work with the Clinton Foundation, Partners In 
Health, and the Government of Rwanda on rebuilding health 
infrastructure in three of the last four districts that lacked central 
hospitals. As in rural Haiti, this has been a very positive experience. 
It has resulted in thousands of jobs for Rwandans, and has created a 
broadly accessible health care infrastructure--all with a modest price 
tag compared to traditional aid contractors.\10\
    If such progress can be made in Rwanda, which boasts strong 
leadership but in 1994 was the poorest country in the world,\11\ then 
one hopes it can be made elsewhere. In part because of this positive 
experience of working together with the Clinton Foundation in Rwanda 
(and in Malawi and Lesotho), I joined President Clinton 6 months ago as 
his deputy in the U.N. role he originated. As Special Envoy for Haiti, 
President Clinton has focused his attention not only on holding donors 
to the financial pledges they made, but also on reducing the risk of 
disasters and on job creation through the massive public works that are 
necessary to reforest Haiti, protect watersheds, and improve 
agricultural yield--the backbone of the Haitian economy. Private 
investment in Haitian businesses, especially small- and medium-
sized ones, is critical to rendering Haiti free of any dependence on 
aid--the goal of Rwanda by 2020, a goal likely to be met.\12\ Haiti 
also has, he noted, great potential as a tourist attraction but lacks 
the infrastructure to welcome the millions of people who should see 
Haiti's natural beauty and historic treasures like King Henri 
Christophe's Citadel.
    This has been our mission: to build back better from the 2008 
storms. We believe that these efforts were beginning to bear fruit. We 
had scheduled a meeting last week in the Hotel Montana to bring in 
another round of investors and also to discuss job creation. As many of 
you know, this hotel is no longer standing, and most inside it perished 
on January 12. But the need for such investments, and the need for 
public works that would create hundreds of thousands of jobs, remains.
    If there is any silver lining to this cloud, it is that we can push 
job creation. It is a strange irony that supporters of economic 
assistance to Haiti are now obliged to shill for ``cash for work'' 
programs--for the quaint notion that people should be paid for their 
labor. Let us at least be honest: It is absurd to argue that 
voluntarism and food-for-work programs will create sustainable jobs. 
But if we set the ground rules on reconstruction correctly, we will be 
able to create sustainable jobs.
    In other words, if we focus the reconstruction efforts 
appropriately, we can achieve long-term benefits for Haiti. The UNDP is 
helping to organize programs of this kind, which should be supported 
and extended around the country. Putting Haitians back to work and 
offering them the dignity that comes with having a job and its basic 
protections is exactly what brought our country out of the Great 
Depression.
    This was always the right thing to do, and aid programs 
persistently fail to get it right. So here is our chance: If even half 
of the pledges made in Montreal or other such meetings are linked 
tightly to local job creation, it is possible to imagine a Haiti 
building back better with fewer of the social tensions that inevitably 
arise as half a million homeless people are integrated into new 
communities.
    Haiti needs and deserves a Marshall Plan--not the ``containment'' 
aspects of that policy, unless we are explicit about containing the ill 
effects of poverty, but the social-justice elements--but we need to be 
honest about the differences between post-war Europe and Haiti in 2010. 
Part of the problem, I've argued, is the way in which aid is delivered 
now as compared to in 1946--well before the term ``beltway bandits'' 
was coined. We need a reconstruction fund that is large, managed 
transparently, creates jobs for Haitians, and grows the Haitian 
economy. We need a reconstruction plan that uses a pro-poor, rights-
based approach based on something far different from the charity and 
failed development approaches that have marred interactions between 
Haiti and much of the rest of the world for the better part of two 
centuries.
    Our country can be a big part of this effort. Debt relief is 
important, but only the beginning. Any group looking to do this work 
must share the goals of the Haitian people: social and economic rights, 
reflected, for example, in job creation, local business development, 
watershed protection (and alternatives to charcoal for cooking), access 
to quality health care, and gender equity. Considering all these goals 
together orients our strategic choices. For example, cash transfers to 
women, who hold the purse strings in Haiti and are arbiters of 
household spending, will have significant impact. This is a chance to 
learn and move forward and build on lessons learned in adversity--to 
build hurricane-resistant houses with good ventilation to improve air 
quality from stove smoke; to build communities around clean water 
sources; to reforest the terrain to protect from erosion and to nurture 
the fertility of the land for this agriculturally dominant country. It 
is the chance to create shelter, grow the local economy and incomes, 
and invest in improved health. This will do much to decrease the risk 
of another calamity, and to decrease the vulnerability of the poor--
especially as we face the second wave of problems, including epidemic 
disease born of the earthquake.
    As a doctor, I can tell you that bad infrastructure and thoughtless 
policy are visible in the bodies of the poor, just as are the benefits 
of good policy and well-designed infrastructure. In my almost 30 years 
in Haiti I have witnessed many political interventions and multiple 
coups. They have been unpleasant, even if their effects pale in the 
shadow of what we are now experiencing. Many people look at Haiti and 
despair. They say that aid is wasted, that there is no hope for this 
country. I would answer them with the positive experience of building 
Haitian-led programs in the Central Plateau and Artibonite Valley 
regions that have created 5,000 jobs for people who would otherwise 
have no steady work. I advance this model not because it is associated 
with our efforts, but because job creation is the surest way to speed 
up the cash flow that is essential now. It is also the fastest way to 
make amends for our past actions toward Haiti, which have not always 
been honorable.
    Sitting before you, I am at my core optimistic about the 
possibilities before us and the potential of our support to help rescue 
and transform our poorest neighbor. The response from citizens of the 
United States to the recent events in Haiti has been overwhelming and 
encouraging. There is the promise of solidarity by our leadership to 
make long-term commitments to the kinds of investments needed in 
Haiti--and to fulfilling them.
    For two centuries, the Haitian people have struggled for basic 
human and economic rights, the right to health care, the right to 
education, the right to work, the right to dignity and independence. 
These goals, which Haitians share with people all over the world, 
should direct our policies of aid and rebuilding.
    As I wrote with colleagues in a recent op-ed--which is available in 
my written testimony--as physicians working in Haiti, we know firsthand 
that Haiti itself will soon be the casualty if we do not help build 
back better in the way envisioned by Haitians themselves.

----------------
    \1\ Walker, P. ``Haiti Earthquake Aid Pledged by Country.'' 
Guardian.co.uk 26 January 2010. Available at: http://
www.guardian.co.uk/news/datablog/2010/jan/14/haiti-quake-aid-pledges-
country-donations (accessed January 27, 2010).
    \2\ Flintoff, Corey. ``In Haiti, A Low-Wage Job Is Better Than 
None,'' All Things Considered, June 14, 2009. Available at: http://
www.npr.org/templates/story/story.php?storyId=104403034 (accessed 
January 27, 2010).
    \3\ In 2006, the World Bank estimated that 78 percent of Haiti's 9 
million people lived on less than $2 per day. See Haiti at a Glance, 
World Bank, Development Data Group (DECDG). Available at: http://
siteresources.worldbank.org/INTHAITI/Resources/Haiti.AAG.pdf (accessed 
January 26, 2010).
    \4\ For an overview of Haiti's water insecurity and past delays in 
international commitments to address this crisis, see Varma MK, 
Satterthwaite ML, Klasing AM et al. Woch nan soley: The denial of the 
right to water in Haiti. Robert F. Kennedy Memorial Center for Human 
Rights, Center for Human Rights and Global Justice at NYU School of 
Law, Partners In Health, and Zanmi Lasante, 2008. Available at: http://
www.chrgj.org/projects/docs/wochnansoley.pdf (accessed January 27, 
2010).
    \5\ This estimate of disbursements was prepared in January 2010 in 
an internal memorandum of the U.N. Office of the Special Envoy For 
Haiti. President Clinton, in his capacity as U.N. Special Envoy, 
frequently appealed to donors to fulfill their commitments. See Helprin 
J, ``Bill Clinton Chides Nations Over Help to Haiti.'' Associated 
Press, September 9, 2009. Available
at: http://www.newsvine.com/_news/2009/09/09/3243861-bill-clinton-
chides-nations-over-help-for-haiti (accessed January 27, 2010).
    \6\ Farmer, P. ``Challenging Orthodoxies: The Road Ahead for Health 
and Human Rights.'' Health and Human Rights: An International Journal 
2008; 10(1): 5-19.
    \7\ Daniel, Trenton, ``Bill Clinton Tells Diaspora: `Haiti Needs 
You Now,' '' Miami Herald, August 9, 2009. Available at: http://
www.miamiherald.com/news/americas/haiti/story/1179067.html (accessed 
January 27, 2010).
    \8\ Farmer P, Smith Fawzi MC, and Nevil P. ``Unjust Embargo of Aid 
for Haiti.'' The Lancet 2003; 361: 420 423.
    \9\ Sachs, J. ``After the Earthquake, How To Rebuild Haiti From 
Scratch.'' Washington Post, 17 January 2010. Available at: http://
www.washingtonpost.com/wp-dyn/content/article/2010/01/15/
AR2010011502457.html (accessed January 27, 2010).
    \10\ Republic of Rwanda, Ministry of Health, and Partners In 
Health. ``African Rural Healthcare: An Evaluation of the South Kayonza, 
Rwanda Project'' (2005-2011). Programme Report, Ministry of Health, 
2006.
    \11\ United Nations Development Programme. ``Human Development 
Report: 1997.'' New York: Oxford University Press, 1997. 146-148. 
Available at: http://hdr.undp.org/en/media/hdr_
1997_en_indicators1.pdf (accessed January 27, 2010).
    \12\ Republic of Rwanda. ``Rwanda Vision 2020.'' Kigali: Ministry 
of Finance and Economic Planning, Republic of Rwanda, 2002. Available 
at: http://www.cdf.gov.rw/documents%20library/important%20docs/
Vision_2020.pdf (accessed January 27, 2010).
                                 ______
                                 
                 [From the Miami Herald, Jan. 23, 2010]

                          Tales From the Front

         (By Drs. Paul Farmer, Louise Ivers and Claire Pierre)
    The vocabulary of clinical medicine is large and arcane, but a 
couple of concepts are useful in diagnosing what is happening in Haiti 
and in setting a path. In the coming weeks, there will be scores of 
prescriptions for Haiti, but there must also be diagnoses, too. What is 
going on right now would be described in clinical terms as an ``acute-
on-chronic'' picture: Haiti's majority has long been dealing with 
serious problems and to this has been added the acute injury of a 
massive earthquake affecting much of the country, most notably its most 
heavily populated areas.
    If any kind of chronology can be imposed on a disaster of this 
magnitude, we are moving into the next phase, where rescue and relief 
operations continue--miraculous rescues of those trapped are still 
occurring, with one young girl and her brother pulled from rubble the 
other day and now recovering at the largest urban hospital--and are 
complemented by slowly coordinated efforts to bring food, drink, 
shelter, and basic medical services to the millions affected by the 
quake.
    Some of the aid is starting to move, as repeat visits to Port-au-
Prince's general hospital reveal: In the space of less than a week, the 
hospital, run by local staff, has been assisted by scores of surgical 
and medical volunteers and has moved from no functioning operating 
rooms to a dozen that are busy all day, every day and throughout the 
night, too.
    This disaster has brought together goodwill and interest in Haiti 
such that for the first time in the country's history, there may soon 
be enough surgeons and trauma specialists.
    There are, of course, many kinds of trauma, and even those who 
escaped unscathed physically have lost friends and loved ones, to say 
nothing of material possessions.
    Across the country, as people continue to search for missing family 
members and friends, a kind of numbness is giving way to grief. Rescue 
workers and medical personnel and ad hoc logisticians, most of them 
Haitians, will need a break, as some of them have been working nonstop 
for over a week. One of our collaborators is still in the clothes in 
which she escaped with her life from her home.
                             sense of calm
    Everywhere here you see Haitians helping each other. Despite 
reports of violence, what strikes many of us is the overall sense of 
calm: Former President Clinton, after bringing surgical supplies to the 
general hospital, noted that no other people in the world would be so 
patient and calm in the face of so much suffering.
    A young Haitian colleague, already on the faculty of Harvard 
Medical School, is organizing scores of volunteers from every class. 
People have opened their homes and yards, which are covered with 
makeshift shelters: The chronic problem of housing in Haiti is now 
worsened by the acute problem of half a million newly homeless.
    In addition to cross-class cooperation, it is clear that the 
Haitian diaspora, which scattered across North America and Europe (and 
even Rwanda, where a small group of Haitians is busy raising funds) has 
a lot to offer beyond material assistance. One post-surgical ICU 
doctor, Dr. Ernest Benjamin, wrote to his home institution in New York 
to say that ``at last this is starting to look like a functioning 
hospital.''
    He and other Haitian professionals living in the United States--
Haitian physicians and nurses are a powerful force there--have much to 
offer a large-scale rebuilding effort if it is coordinated with efforts 
to rebuild national institutions.
    Another helpful notion from medicine is the pledge to ``do no 
harm.'' Knowing what not to do is not the same thing as knowing what to 
do--who can be sure of what to do when nothing of this scale has been 
registered before?--but it is important nonetheless to learn from years 
of international aid to Haiti.
    First, long-term lack of coordination of relief and reconstruction 
efforts will be costly. Competition between self-described donor 
nations is worse than unhelpful. Even now, there is bedlam as medical 
teams arrive with excellent skills and intention, but insufficient 
coordination.
    The many clinicians now in the country need to work together as a 
team.
    One potential model of recovery for Haiti is the nation of Rwanda. 
After the 1994 genocide, Rwanda was overwhelmed by the international 
helping class, which included, in addition to many people of good will, 
a flock of trauma vultures, consultants and carpetbaggers. Under the 
strong leadership of the nascent government, including now-President 
Paul Kagame, leaders insisted that recovery and reconstruction aid be 
coordinated by the central and district governments. A number of 
nongovernmental organizations left Rwanda, but most would argue the 
decisions made then have helped to create a new model of collaboration 
between public and private actors, and contributed to Rwanda's 
remarkable post-genocide stability and growth.
    The Government of Rwanda has made a generous fmancial gift to the 
people of Haiti.
    Second, neglecting the immediate-term needs in favor of the long 
view is a mistake. People need food, water, shelter and sanitation in 
the days and months to come, to complement the emergency medical care 
that has been dispatched.
    Third, those who wish to help in the next few days would be wise to 
hold off on most in-kind donations. Some of these will surely be needed 
soon, but the best thing to do right now is to send cash to 
organizations that have deep connections to Haiti and can draw on local 
knowledge and local hands to respond to the immediate needs of the 
injured, homeless, and sick.
                          resettlement efforts
    Fourth, we must do no harm in resettlement efforts. Housing will be 
an enormous challenge, and will require the best minds on the planet. 
We need to avoid creating intermediate-term camps that become slums.
    Fifth, we must make sure that deportation of Haitians from the 
United States and elsewhere stops.
    Prescriptions for Haiti will be bountiful from outside, but we must 
ensure that the prescriptions are correct. Haiti needs a different kind 
of assistance, one built on solidarity and respect and rooted in what 
the Haitian people want for themselves. Assistance offered now must 
develop food sovereignty for Haiti and investment in the rural area, 
now seeing an influx of those displaced from the capital.
    The next few weeks will reveal some sense of the long-term 
prognosis for the reconstruction of Haiti. There is already talk of a 
$12 billion rebuilding tab.

    The Chairman. Thank you very much, Dr. Farmer.
    Mr. Dobbins.

   STATEMENT OF HON. JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
SECURITY AND DEFENSE POLICY CENTER, NATIONAL SECURITY RESEARCH 
              DIVISION, RAND CORP., WASHINGTON, DC

    Ambassador Dobbins. Thank you, Mr. Chairman.
    The history of prior American and international 
interventions in Haiti must instill a sense of caution 
regarding the prospects for working any real transformation 
there. Yet, as a candidate for assistance, Haiti has many 
advantages over other fragile states, including some in which 
the state-building process has yielded quite positive results. 
Most of the--most of those sorts of states are surrounded by 
conflict-prone and predatory neighbors.
    Haiti, in contrast, sits in the midst of a zone of relative 
peace--of peace and relative prosperity. All of Haiti's 
neighbors are much richer, and none have any interest in 
destabilizing Haiti or inhibiting its development. Neither is 
Haiti divided by competing ethnic or religious groups. Haitians 
have a strong sense of national identity and no serious 
sectarian divides. Haiti also has a large and relatively 
prosperous diaspora, many of whom are located at no great 
distance and enjoy frequent contact with their families on 
island. So, Haiti does have certain inherent advantages.
    In addition to these inherent advantages, I think there are 
three relatively new conditions that suggest that, this time 
around, we may do better than we have the last few.
    First of all, the final departure of President Aristide in 
2004 has greatly diminished partisan rancor in both Port-au-
Prince and Washington. At a moment when Bill Clinton and George 
W. Bush are campaigning together for relief to Haiti, one may 
hope that this American divide, which so hobbled American 
efforts to help Haiti in the past, has definitively closed.
    Second, the outpouring of sympathy for Haiti as a result of 
the recent earthquake seems likely to yield a substantial 
increase in American and international aid levels. More money 
means more assistance, but it also means more leverage to 
promote change.
    Finally, the very immensity of the recent disaster has 
administered a shock to the Haitian political structure that 
can help ease resistance to reform and undermine longstanding 
barriers to progress within Haiti.
    My own experience with Haiti dates back to the American 
intervention of 1994. This was one of five such nation-building 
operations with which I became associated, including Somalia, 
early in the decade, then Bosnia and Kosovo, and, finally, 
Afghanistan, on behalf of the Bush administration. And since 
leaving office, I've had an opportunity to reflect not only on 
that American experience, but also on a dozen or more U.N. and 
other operations with which the United States was not closely 
associated. And so, I'd like to offer a number of proposed 
guidelines for assistance to Haiti that's based on that broad 
experience of the last 60 years in these kinds of missions in 
fragile island states.
    First, security is an essential prerequisite for reform, as 
it is for private investment. In the absence of security, any 
positive changes will be washed away. So, the bad news is that 
an international security presence in Haiti is going to be 
required for a long time. The good news is that Haiti is not a 
particularly difficult society to secure. Contrary to the 
popular image, the Haitian population is neither heavily armed 
nor inclined to violence. One has only to regard the patience 
with which the people of Port-au-Prince has awaited succor over 
the last 2 weeks to recognize its essentially peaceful 
character. Haiti is no Somalia, Iraq, or Afghanistan.
    American troops, therefore, are unlikely to be required 
once the immediate emergency passes. I think the United Nations 
should be able to secure Haiti successfully with the modest 
reinforcements that have already been authorized.
    I do think that the United States should consider 
increasing the assignment of American police officers to the 
U.N. police contingent there. We have a unique attribute to 
draw on, which is a number of Haitian-American police officers, 
in big cities like Miami and New York and elsewhere, who, I 
think, can offer a valuable contribution to the U.N. police 
force, which is helping to secure Haiti.
    Second lesson drawn from these past operations is that 
stabilization and reconstruction operations take time. The 1994 
American-led intervention was a case in point. That operation 
was almost entirely successful in its own terms, but those 
terms were much too narrow. In launching the intervention, 
President Clinton promised to restore a freely elected 
President and then to keep American troops in Haiti only long 
enough to organize new elections and inaugurate a new 
President. And he promised to do this all within 2 years.
    This, his administration proceeded to do, hitting every 
benchmark, achieving every target, and suffering almost no 
casualties. But, 2 years was too short a time to fix a society 
as troubled as Haiti's, and the 1994 intervention accomplished 
little of lasting value.
    Recent post-conflict stabilization and reconstruction 
operations have lasted--have been lasting 8 to 10 years. The 
current operation began in 2004, but I think, as the result of 
the earthquake, we basically have to set the clock back to zero 
and assume that a U.N. peacekeeping force is going to be 
required there, probably for another decade at least.
    Third, in a post-conflict environment, economic development 
and political reform programs need to be evaluated not just on 
their potential to promote growth and social justice, but on 
their capacity to ease tensions in the society and promote 
reconciliation among long-hostile groups. This means that 
programs to relieve poverty, create jobs will be a necessary 
part of a larger aid effort, even if their immediate impact is 
sometimes rather ephemeral.
    Fourth, assistance should be focused on building a more 
competent and efficient state. This is probably my most 
important message. Haiti's vulnerability to natural disaster is 
not just a matter of weak building codes and poor 
infrastructure, but, more fundamentally, the result of having 
an exceptionally weak state, one that cannot provide even 
minimal public services--security, power, water, health, and 
education--to the majority of its population.
    Large amounts of American aid and other donor money are 
going to flow into Haiti in the coming weeks, and the 
temptation will be to spend most of it, as Dr. Farmer 
suggested, on American and foreign NGOs that can deliver 
essential services with fair reliability and good 
accountability. But, this sort of aid leaves no lasting local 
capacity to sustain those services. A second priority will be 
on bricks and mortar. But, this too will leave the underlying 
Haitian institutions unaltered.
    Aid, therefore, also needs to be directed on a priority 
basis toward enhancing Haiti's capacity to govern itself. This 
means providing Haitian Government the wherewithal to hire 
well-qualified staff at competitive wages and programs to 
further train such staff and provide them information systems 
and other support services needed to maximize their efficiency.
    Fifth, Haiti needs to be built from the bottom up as well 
as the top down. It's not just Port-au-Prince; it's the rural 
populations. It's not just the government ministries in Port-
au-Prince; it's creating the capacity of the Haitian Government 
to actually penetrate and deliver services at the local level, 
and also to promote the development of local leadership, local 
mayors, local councils, and provide them the wherewithal to 
assist their constituents.
    Sixth, the U.S. Government needs to organize itself for a 
sustained, high-intensity effort. I would suggest that the 
Presi-
dent and the Secretary of State should invest a single 
individual
with the authority and responsibility for Haiti, comparable to 
that
which Ambassador Richard Holbrooke currently exercises for 
Afghanistan.
    Congress should authorize and appropriate new money for 
Haiti, not in the usual categories of development assistance, 
security assistance, counternarcotics assistance, refugee 
assistance, et cetera, but in a single account, unencumbered by 
earmarks and special limitations, and then work, through the 
consultative and oversight processes, with whomever the 
administration designates as its point person, to make sure 
this money is carefully targeted and well spent.
    Seventh, it's important the international program for 
reform of Haitian institutions not bear a ``Made in 
Washington'' imprint. I believe that the United States should 
work to establish conditions for assistance, and to insist 
those conditions are met through institutions like the United 
Nations and the World Bank. We should help those institutions 
target the reforms that are feasible and essential, and to set 
the conditions which will use the leverage that assistance 
provides to get those reforms effectuated.
    And the United States should work quietly behind the scenes 
to use its political influence to make sure that the Haitian 
institutions do, indeed, adopt those reforms and embrace them. 
And the United States, of course, should be contributing 
directly and substantially to both U.N. and World Bank efforts.
    I would suggest the division of labor would be the United 
Nations continuing to take the lead in reforming the security 
sector, including police, courts, and prisons, in supporting 
elections and promoting political reform, while the World Bank 
takes the lead in supporting economic and social reforms.
    Finally, there are a couple of things that the United 
States is uniquely positioned to do by reason of its proximity. 
These involve trade and immigration.
    Senator Kerry, you already mentioned the very generous 
preferential access Haiti has to the United States market. This 
is a time-limited access, and I would suggest we, on that as 
well as on the peacekeeping force, essentially set the clock 
back to zero and assume that that access begins as of today 
rather than as of when it actually went into effect.
    And second, I do suggest, as I think Senator Lugar was 
suggesting, that the United States should consider a temporary 
increase in family unification immigration to the United 
States. Haitian society may be economically dysfunctional, but 
Haitian immigrants have, quite the contrary, proved to be 
exceptionally hard-working, family-oriented, law-abiding 
contributors to our society, even as they are one of the 
largest sources of support for those they leave behind in 
Haiti. Every dollar they remit to relatives in Haiti is another 
dollar that does not need to come from the U.S. taxpayer.
    Thank you.
    [The prepared statement of Ambassador Dobbins follows:]

   Prepared Statement of Hon. James Dobbins, Director, International 
    Security and Defense Policy Center, National Security Research 
                  Division, RAND Corp., Washington, DC

    In considering how best to help Haiti recover from the January 12 
earthquake, it is important torecognize that one now has an 
international disaster relief operation superimposed on top of a 
preexisting post-conflict reconstruction mission. The earlier of these 
two operations began in 2004, when American and then-United Nations 
troops assumed responsibility for security in Haiti.
    Of the two operations, humanitarian relief is clearly the more 
urgent, but post conflict stabilization and reconstruction is 
ultimately the more important. One intends to restore Haiti, the other 
to transform it.
    The ultimate aim of any post conflict mission is to leave behind a 
society better able to look after itself. Usually this means the 
ability to manage political domestic competition in ways that do not 
spill over into violent conflict. In Haiti's case, the objective must 
also be to improve that society's capacity to deal with the sort of 
natural disaster that, given this country's location, will continue to 
strike with some regularity.
    In trying to help fix a failed or failing state, one must begin by 
analyzing the sources of fragility. The earthquake demonstrated the 
weakness of Haiti's infrastructure. It also highlighted the weakness of 
its governing institutions. This is the true source of Haiti's 
vulnerability to conflict and to natural disaster. In Haiti's case, 
state-building, rather than nation-building is the more apt description 
of our mission.
    The history of prior American and international interventions in 
Haiti must instill a sense of caution regarding the prospects for any 
transformation. Yet as a candidate for such assistance, Haiti has many 
advantages over other fragile states, including ones where the nation- 
or state-building process has yielded positive results. Most of those 
states were surrounded by conflict prone and predatory neighbors. Haiti 
sits in the midst of a zone of peace and relative prosperity. All of 
its neighbors are much richer, and none have any interest in 
destabilizing Haiti or inhibiting its development. Neither is Haiti 
divided by competing ethnic or religious groups. Haitians have a strong 
sense of national identity, and no serious sectarian divides. Haiti 
also has a large and relatively prosperous diaspora, many of whom are 
located at no great distance and enjoy frequent contact with their 
families on the island.
    So Haiti does have certain inherent advantages. In addition, there 
are three newer factors which provide some hope that future efforts to 
help Haiti can yield more enduring results than those of the past.
    First, the final departure of ex-President Aristide in 2004 has 
greatly diminished partisan rancor in both Port-au-Prince and 
Washington. At a moment when Bill Clinton and George W. Bush are 
campaigning together for relief to Haiti, one may hope that this 
American divide, which so hobbled American efforts to help Haiti in the 
past, has definitively closed.
    Second, the outpouring of sympathy for Haiti as a result of the 
recent earthquake seems likely to yield a substantial increase in 
American and international aid levels. More money means more assistance 
and also more leverage to promote change.
    Finally, the very immensity of the recent disaster has administered 
a shock to the Haitian political structure that can help ease 
resistance to reform and undermine longstanding barriers to progress.
    My personal experience with Haiti dates back to the American 
intervention of 1994. This was one of five such nation-building 
operations with which I became associated, beginning with Somalia 
earlier in that decade, and ending with Afghanistan in the aftermath of 
9/11. Since leaving government, we at RAND have issued a series of 
studies looking at the results of post conflict stabilization and 
reconstruction missions across each of these American-led 
interventions, plus a larger number of U.N.-led operations. Based on 
this body of work, I offer the following suggested guidelines for 
future aid to Haiti.
    First, security is an essential prerequisite to reform, as it is to 
private investment. In the absence of security, any positive changes 
will eventually be washed away. Fortunately, Haiti is not a difficult 
society to secure. Contrary to the popular image, the Haitian 
population is neither heavily armed, nor inclined to violence. One has 
only to regard the patience with which the people of Port-au-Prince has 
awaited succor over the past 2 weeks to recognize its essentially 
peaceful nature. Haiti is no Somalia, Iraq, or Afghanistan. The 
comparative docility of the population is, in fact, one reason why very 
small numbers of armed men have on occasion been able to threaten the 
state and overturn governments. In 2004, for instance, Aristide was 
driven out of office by an insurgency numbering in the very low 
hundreds, equipped with nothing but small arms.
    American troops are, therefore, unlikely to be required once the 
immediate humanitarian emergency passes. Securing Haiti should be well 
within the capability of the current U.N. peacekeeping force, modestly 
strengthened as it is being to help cope with the new, post-earthquake 
challenges. Nevertheless, the United States can and should help the 
U.N. in this task by assigning an increased number of American police 
to the U.N. international police contingent. In doing so, the United 
States should draw, in particular, on Creole-speaking Haitian-American 
policemen from places like Miami and New York.
    Second, stabilization and reconstruction operations take time. The 
1994 American-led international intervention was a case in point. That 
operation was almost
entirely successful in its own terms, but those terms were much too 
narrow. In launching the intervention, President Clinton promised to 
restore a freely elected President and then to keep American troops in 
Haiti only long enough to organize new elections, inaugurate a new 
President, Parliament and local officials. He promised to do this all 
within the space of 2 years. This his administration preceded to do, 
hitting every benchmark, achieving every target, and suffering almost 
no casualties in the process. But 2 years was too short a time to fix a 
society as troubled as Haiti's. In the end the 1994 intervention 
accomplished little of lasting value.
    Recent post-conflict stabilization and reconstruction operations 
have been lasting 8 to 10 years. The current effort in Haiti began in 
2004, but the country has since suffered devastating flood damage and 
now the earthquake. The clock on this operation therefore needs to be 
set back to zero hour, and the U.N. Security Council should plan on 
keeping a peacekeeping force in Haiti for another 8 to 10 years.
    Third, in a post-conflict environment, economic development and 
political reform programs need to be evaluated not just on their 
potential to promote growth and social justice, but for their capacity 
to ease tensions in the society and promote reconciliation between long 
hostile groups. In Haiti, these competing groups are not ethnic or 
religious but rather economic and social. Programs that might 
exacerbate such tensions should be scrapped or adjusted, in favor of 
those that draw competing groups into collaboration, even where the 
immediate economic payoff of such programs may be less. This means that 
programs to relieve poverty and create jobs will be a necessary part of 
any larger aid effort, even if their immediate impact is ephemeral, for 
without such visible signs of progress, significant elements of the 
population may be inclined to block longer term, larger payoff efforts 
at reform.
    Fourth, assistance should be focused on building a more competent 
and efficient state. Haiti's vulnerability to natural disaster is not 
just a matter of weak building codes and poor infrastructure, but more 
fundamentally the result of having an exceptionally weak state that 
cannot provide even minimal public services--security, power, water, 
health and education--to the vast majority of its people. Haiti is, for 
instance, the only state in the entire Western Hemisphere that does not 
provide free primary education to most of its children.
    The urgency of the immediate crisis requires that donor countries 
themselves provide people with food, water, medicine and shelter, 
bypassing the Haitian state. As we move beyond this emergency relief 
phase, the next priority will be to repair the country's most basic 
infrastructure--hospitals, schools, roads, electricity, telephones and 
government buildings. But these institutions should not be rebuilt on 
the old, inefficient, corrupt foundations. Rather the scale of this 
disaster offers the opportunity to accelerate long planned, oft delayed 
reforms in each of these sectors.
    The port of Port-au-Prince has, for instance, long had the highest 
cost per ton in the hemisphere despite having the lowest wage rate. We 
should help rebuild this port, but not with the same grossly 
inefficient management and distorted cost structure. The same goes for 
the education ministry, the electric company, the telephone monopoly, 
the health ministry and the court system. Repair or replace the 
buildings, by all means, but also insist upon fundamental reforms in 
the management of these institutions.
    Large amounts of American and other donor money will flow into 
Haiti in coming weeks. The temptation will be to spend most of it on 
American and foreign NGOs that can deliver essential services with fair 
reliability and good accountability, which Western legislators insist 
upon. But this sort of aid leaves behind no lasting local capacity to 
sustain those services. The second priority will be on bricks and 
mortar construction. This too will leave the underlying Haitian 
institutions unaltered. Such aid should, thus, be oriented to the 
extent possible on enhancing Haiti's capacity to govern. This means 
providing the Haitian Government the wherewithal to hire well qualified 
staff at competitive wages, and programs to further train such staff 
and provide them the information systems and other support service 
needed to maximize their efficiency.
    Fifth, the Haitian state should be built from the bottom up as well 
as the top down. This means assistance to mayors and local councils, 
and funding which will allow key government agencies to establish a 
presence beyond Port-au-Prince. For decades the population has moved 
off the land and into the big cities, particularly the capital. This 
exodus has now, as a result of the earthquake, been reversed. 
Assistance efforts should be designed to help those who have left the 
city to find a livelihood in the countryside, rather than return to the 
shanty towns from whence the have fled.
    Sixth, the U.S. Government needs to organize itself for a sustained 
high-intensity effort to promote these reforms. The President and 
Secretary of State should invest a single individual with authority and 
responsibility for Haiti comparable to
that Ambassador Richard Holbrook currently exercises for Afghanistan. 
Congress should authorize and appropriate new money for Haiti not in 
the usual categories of development assistance, security assistance, 
counternarcotics assistance, refugee assistance, etc., but in a single 
account unencumbered by earmarks and special limitations, and then work 
through the consultative and oversight processes with whomever the 
administration designates as its point person to ensure that this money 
is carefully targeted and well spent.
    Seventh, it is important that the international program to reform 
Haitian institutions not bear a made-in-Washington imprint. Large-scale 
international assistance will carry with it significant leverage to 
promote change, but this pressure needs to be exerted in a carefully 
calibrated manner. Candidate programs for reform need to be carefully 
chosen, local champions identified and empowered, local opponents co-
opted, politicians lobbied and the public informed. The United Nations 
and the World Bank, the two major international institutions most 
heavily engaged in Haiti should be out in front, choosing and designing 
the necessary reforms and conditioning assistance on their achievement. 
The United Nations should continue to lead in reforming the security 
sector, to include police, courts and prisons, and in supporting 
elections and promoting political reform. The World Bank should assume 
leadership throughout the economic and social sphere, identifying the 
key changes needed and setting the conditions for assistance. The 
United States should work in concert with the other key donors, 
particularly Canada, France and the European Union, forming a small 
core group to quietly help the U.N. and the World Bank define their 
reform objectives and then working largely behind the scenes to ensure 
these objectives are achieved. The United States should contribute 
directly to U.N. and World Bank funds for Haiti, and should make sure 
that its own bilateral programs, and those of other donors contribute 
to, rather than undercut the reform programs set out by these 
institutions.
    Finally, there are a couple of things that the United States is 
uniquely positioned to do by reason of its proximity to Haiti. These 
involve trade and immigration.
    In 2006 Congress passed legislation providing Haiti uniquely 
generous but time-limited access to the U.S. market. As with the U.N. 
peacekeeping mission, the time clock on this access should be set back 
to zero, recognizing that the earthquake has more than swept away 
whatever had been accomplished since these preferences originally went 
into effect.
    The United States should also consider temporarily raising its 
annual quota for Haitian immigration. Haitian society may be 
economically dysfunctional, but Haitian immigrants have, quite to the 
contrary, proved to be hard-working, family-oriented, law-abiding 
contributors to our society, even as they are one of the largest 
sources of support for those they leave behind in Haiti. Every dollar 
that they remit to relatives in Haiti is another dollar that does not 
need to come from the U.S. taxpayer. Expanding legal Haitian 
immigration thus seems a classic win-win proposition.
    The current crisis, though tragic, offers the chance to boost Haiti 
out of decades of poverty and misrule. A successful strategy for doing 
so will require several elements: care in the design, sustained U.S. 
commitment, effective international coordination, and, above all, a 
focus on strengthening Haiti's governing institutions.

    The Chairman. Thank you very much, Mr. Dobbins, for some 
very thoughtful suggestions.
    Dr. Francois.

   STATEMENT OF M. RONY FRANCOIS, M.D., INCOMING DIRECTOR OF 
          PUBLIC HEALTH, STATE OF GEORGIA, ATLANTA, GA

    Dr. Francois. Good morning, Chairman Kerry, Ranking Member 
Lugar, and members of the committee.
    My name is Dr. Rony Francois. I'm a physician and a doctor 
of public health by training. I'm also the immediate past 
secretary of health for the State of Florida, as well as the 
immediate past director of public health for the State of 
Louisiana. Effective Monday, I will be the director of public 
health for the State of Georgia.
    I want to thank the committee for inviting me to testify on 
the topic of ``Haiti: From Rescue to Recovery and 
Reconstruction.'' My testimony will focus on the following: 
extent of the damages, immediate relief needs, some 
intermediate goals, and the long-term path to recovery and 
development.
    Extent of the damages. An earthquake of 7.0 magnitude is a 
challenge for any country, but when it occurs in one of the 
world's most fragile countries, its intensity seems potentiated 
as it finds a destructive and sinister synergy in the vast 
landscape of feeble structures. The estimated mortality is 
about 200,000. There are about 4,000 missing Americans. The 
number of injured approaches 1 million. The number of people 
affected is approximately 3 million. The economic damage is 
difficult to quantify.
    My mother- and father-in-law lost everything in Haiti. 
Fortunately, they were in the United States with me when the 
devastation occurred.
    Immediate relief needs. With the great number of people 
affected, the critical needs are food and water, medical care, 
temporary shelters, security, and sanitation.
    In terms of diet, the most vulnerable groups are the 
newborns and young infants, who require age-appropriate 
formula.
    However, tensions in the capital city and also the 
countryside continue to grow, as many families do not have 
access to food and other basic goods. The escalation of 
frustration is already inducing violence, and if resources are 
not more strategically distributed throughout the country, the 
security situation on the ground could rapidly deteriorate.
    Medical teams must also remain vigilant about wound 
infections, sepsis, malaria, tetanus, respiratory infections, 
and typhoid, as thousands more could die if conditions are not 
closely monitored and immediate steps are not taken to mitigate 
risks.
    Intermediate goals. In light of over 50 aftershocks of a 
magnitude of 4.5 or greater, a thorough assessment of the 
structural integrity of the remaining homes and buildings is 
absolutely critical for the future safety of the population.
    Before entering the United States and earning his doctorate 
degree in structural engineering, specializing in foundations 
and water resources, my brother, Carl, worked as an engineer in 
Port-au-Prince. And building codes at that time did not exist, 
and construction practices were geared to withstand hurricane 
wind forces, and not earthquakes.
    In order to forecast the magnitude and, hence, the cost of 
debris rubble removal and disposal, it is appropriate to 
compare this recovery effort to the models and lessons learned 
after the September 11, 2001, destruction at the World Trade 
Centers, after Hurricane Ivan's aftermath in Pensacola, FL, and 
after Hurricane Katrina's devastation of the Gulf Coast States, 
where recovery is still ongoing today.
    The materials collected during this cleanup can be recycled 
or transported as fill for reclamation land along the coast of 
the bay of Port-au-Prince.
    Assuring proper drainage of rainwater will be a massive 
undertaking with the Mountain l'Hopital's steep watershed and 
the drastic reduction of previous areas with tree-cutting 
practices and anarchistic construction. The existing system was 
already obsolete and undersized and did not seem to rely on 
accurate hydrological data.
    In addition, with the earthquake's underground stresses 
generated from the wave propagation, it must be anticipated 
that the majority of structures and pipes--mostly concrete--
have sustained irreversible damage.
    The waterworks and sewer infrastructures, gauged against 
current environmental standards, were already inadequate. 
Construction from scratch might be considered.
    The source of water supply might be adjusted after 
evaluation of the Cul-de-Sac Plain aquifer capacity and 
inventory of other reserves through groundwater hydrology. 
Another viable option is to tap into the bay of Port-au-Prince 
readily available sea saltwater through a desalination process.
    Long-term reconstruction and development. Decentralization 
away from Port-au-Prince must be a priority goal of future 
development efforts. The earthquake has already triggered an 
exodus of the population to various parts of Haiti. In order 
for that migration to become permanent, investments must be 
made in agriculture, food security, local jobs, tourism 
infrastructure, security, roads, and airports.
    Access to rudimentary medical care must also be 
decentralized with a network of community health centers across 
the country. Public health must become the foundation of this 
new health system and foster the widespread training and use of 
health promoters of agents--or agents of health.
    Improvements in literacy should also remain central to any 
development efforts.
    I would like to share with the committee a few of the 
recommendations of the Haiti Advisory Group, created by 
executive order on July 14, 2004, by former Florida Governor 
Jeb Bush. The advisory group consisted of 17 prominent Haitian-
Americans with significant experience in Haitian issues. The 
advisory group formulated a set of 25 recommendations to the 
Governor and the State of Florida. These prophetic 
recommendations, which are still very relevant today, included 
a wide range of problematic issues that fall in the following 
categories: security recommendations, economic development 
recommendations, disaster preparedness, environmental 
rehabilitation.
    Although Florida was the main partner of these projects, I 
would propose that these recommendations be adopted by the 
United Nations. Examples include creation of a dedicated 
professional exchange and training program with the Government 
of Haiti. This would allow volunteers, utilizing their vast 
experience and skills, to travel to Haiti to provide in-country 
technical assistance and training. The objective of a 
professional exchange and training program would be to provide 
Haitian participants with the knowledge, skills, and resources 
they need to work more effectively in their respective fields 
and to build greater capacity within Haitian institutions.
    For example, Haiti produces only about 80 physicians each 
year. But, that number would steeply decline, since many of the 
medical schools were destroyed. What will happen to medical 
students already enrolled? How will they complete their 
studies? Will opportunities to study aboard be made available? 
A sharp increase of injured and a sharp decrease in doctors 
creates a formula for an intractable disaster.
    The international community should utilize its great 
expertise and experience in law enforcement, corrections, and 
public safety to assist the growth and professionalization of 
the Haitian National Police.
    The United Nations could sponsor a Haiti Trade Mission and 
Matchmaker Fair in which representatives of Haitian businesses 
can travel abroad to meet their counterparts. Promotion of 
investment in Haiti, as well as networking and identification 
of export opportunities of Haitian products, would be primary 
goals.
    The United Nations should begin now to assist Haiti's 
Minister of Commerce, Industry, and Tourism in its plan to 
create a targeted tourism marketing campaign to attract 
Haitian-Americans and other visitors to their country as 
tourists in order to rediscover its natural beauty and 
historical attractions.
    Haiti's infrastructure is now exponentially more vulnerable 
to hurricane-induced disasters like mudslides and flooding. 
Hurricane season begins June 1, and immediate action must be 
taken to mitigate potential risks. The United Nations should 
employ its well-developed expertise and experience with natural 
disasters to provide technical assistance to the Republic of 
Haiti's Directorate of Civil Protection in order for this 
agency to develop appropriate disaster management and 
infrastructure and training.
    In closing, I extend fervent prayers to all of those who 
are affected by the earthquake, as well as to the first 
responders who came from near and far. I also want to 
acknowledge the magnanimous generosity of those who have 
contributed to the relief efforts in Haiti.
    As we move forward, the United States and the international 
community must assure that investments made in rebuilding Haiti 
are actually carried out through community-based organizations, 
faith-based entities, nongovernmental agencies, and nonprofit 
organizations.
    My personal hope is that a new generation of leaders will 
emerge from these ashes to selflessly lead Haiti onto a new 
path of prosperity through integrity, hard work, transparency, 
perseverance, and true democracy.
    Thank you.
    [The prepared statement of Dr. Francois follows:]

  Prepared Statement of M. Rony Froncois, M.D., MSPH, Ph.D., Incoming 
        Director of Public Health, State of Georgia, Atlanta, GA

    Good morning Chairman Kerry, Ranking Member Lugar and members of 
the committee.
    My name is Dr. Rony Francois. I am a physician and a doctor of 
Public Health by training. I am also the immediate past-Secretary of 
Health for the State of Florida as well as the immediate past-Director 
of Public Health for the State of Louisiana. Effective Monday, I will 
be the Director of Public Health for the State of Georgia.
    I want to thank the committee for inviting me to testify on the 
topic of ``Haiti: From Rescue to Recovery and Reconstruction.'' My 
testimony will focus on the following: (1) Extent of the damages; (2) 
the immediate relief needs; (3) some intermediate goals; and (4) the 
long-term path to recovery and development.
                         extent of the damages
    An earthquake of 7.0 magnitude is a challenge for any country. But 
when it occurs in one of the world's most fragile countries, its 
intensity seems potentiated as it finds a destructive and sinister 
synergy in the vast landscape of feeble structures.
    The estimated mortality is about 200,000. There are about 4,000 
missing Americans. The number of injured approaches 1 million. The 
number of people affected is approximately 3 million. The economic 
damage is difficult to quantify.
    My mother and father-in-law lost everything in Haiti. Fortunately, 
they were in the United States with me when the devastation occurred.
                         immediate relief needs
    With the great number of people affected, the critical needs are 
food and water, medical care, temporary shelters, security and 
sanitation. In terms of diet, the most vulnerable groups are the 
newborns and young infants who require age-appropriate formula.
    However, tensions in the capital city and also the countryside 
continue to grow as many families do not have access to food and other 
basic goods. The escalation of frustration is already inducing violence 
and if resources are not more strategically distributed throughout the 
country, the security situation on the ground could rapidly 
deteriorate.
    Medical teams must also remain vigilant about wound infections, 
sepsis, malaria, tetanus, respiratory infections, and typhoid as 
thousands more could die if conditions are not closely monitored and 
immediate steps are not taken to mitigate risks.
                           intermediate goals
    In light of over 50 aftershocks of a magnitude of 4.5 or greater, a 
thorough assessment of the structural integrity of remaining homes and 
buildings is absolutely critical for the future safety of the 
population. Before entering the United States and earning his doctorate 
degree in structural engineering--specializing in foundations and water 
resources--my brother worked as an engineer in Port-au-Prince and 
building codes at that time did not exist and construction practices 
were geared to withstand hurricane wind forces and not earthquakes.
    In order to forecast the magnitude and hence the cost of debris/
rubble removal and disposal, it is appropriate to compare this recovery 
effort to the models and lessons learned after the September 11, 2001, 
destruction at the World Trade Centers, after Hurricane Ivan's 
aftermath in Pensacola, FL, and after Hurricane Katrina's devastation 
of the Gulf Coast States--where recovery is still ongoing today.
    The materials collected during this cleanup can be recycled or 
transported as fill for reclamation land along the coast of the Bay of 
Port-au-Prince.
    Assuring proper drainage of rainwater will be a massive undertaking 
with the Mountain l'Hopital's steep watershed and the drastic reduction 
of pervious areas with tree-cutting practices and anarchistic 
construction. The existing system was already obsolete and undersized 
and did not seem to rely on accurate hydrological data. In addition, 
with the earthquake's underground stresses generated from the wave 
propagation, it must be anticipated that the majority of structures and 
pipes (mostly concrete) have sustained irreversible damage.
    The waterworks and sewer infrastructures gauged against current 
Environmental Engineering standards were already inadequate. 
Construction from scratch might be considered.
    The source of the water supply might be adjusted after evaluation 
of the Cul-de-Sac Plain aquifer capacity and inventory of other 
reserves through groundwater hydrology. Another very viable option is 
to tap in the Bay of Port-au-Prince readily available sea saltwater 
through a desalination process.
                long-term reconstruction and development
    Decentralization away from Port-au-Prince must be a primary goal of 
future development efforts. The earthquake has already triggered an 
exodus of the population to various parts of Haiti. In order for that 
migration to become permanent, investments must be made in agriculture, 
food security, local jobs, tourism infrastructure, security, roads, and 
airports.
    Access to rudimentary medical care must also be decentralized with 
a network of community health centers across the country. Public health 
must become the foundation of this new health system and foster the 
widespread training and use of health promoters or agents of health.
    Improvements in literacy should also remain central to any 
development efforts.
    I would like to share with the committee a few of the 
recommendations of the Haiti Advisory Group created by Executive order 
on July 14, 2004, by former Florida Governor, Jeb Bush. The Advisory 
Group consisted of 17 prominent Haitian-American members with 
significant experience in Haitian issues. The Advisory Group formulated 
a set of 25 recommendations to the Governor and the State of Florida. 
These prophetic recommendations, which are still very relevant today, 
included a wide range of problematic issues that fall into the 
following categories:

  <bullet> Security Recommendations
  <bullet> Economic Development Recommendations
  <bullet> Disaster Preparedness/Environmental Rehabilitation

    Although Florida was the main partner for these projects, I would 
propose that these recommendations be adopted by the United Nations. 
Examples include:

  <bullet> Creation of a dedicated Professional Exchange and Training 
        Program with the Government of Haiti. This would allow 
        volunteers, utilizing their vast experience and skills, to 
        travel to Haiti to provide in-country technical assistance/
        training. The objective of the professional exchange and 
        training program would be to provide Haitian participants with 
        the knowledge, skills, and resources they need to work more 
        effectively in their respective fields and to build greater 
        capacity within Haitian institutions.
      For example, Haiti produces only about 80 physicians each year, 
        but that number will steeply decline since many of the medical 
        schools were destroyed. What will happen to medical-students 
        already enrolled? How will they complete their studies? Will 
        opportunities to study abroad be made available? A sharp 
        increase of injured and a sharp decrease in doctors creates a 
        formula for an intractable disaster.
  <bullet> The international community should utilize its great 
        expertise and experience in law enforcement, corrections, and 
        public safety to assist the growth and professionalization of 
        the Haitian National Police (HNP).
  <bullet> The United Nations could sponsor a Haiti Trade Mission and 
        Matchmaker Fair in which representatives of Haitian businesses 
        can travel abroad to meet with counterparts. Promotion of 
        investment in Haiti, as well as networking and identification 
        of export opportunities for Haitian products would be primary 
        goals.
  <bullet> The United Nations should begin now to assist Haiti's 
        Ministry of Commerce, Industry & Tourism in its plan to create 
        a targeted tourism marketing campaign to attract Haitian-
        Americans and other visitors to their country as tourists in 
        order to rediscover its natural beauty and historical 
        attractions.
  <bullet> Haiti's infrastructure is now exponentially more vulnerable 
        to hurricane induced disasters like mud-slides and flooding. 
        Hurricane season begins June 1 and immediate action must be 
        taken to mitigate potential risks. The United Nations should 
        employ its well-developed expertise and experience with natural 
        disasters to provide technical assistance to the Republic of 
        Haiti's Directorate of Civil Protection, in order for this 
        agency to develop appropriate disaster management 
        infrastructure and training.

    In closing, I extend fervent prayers to all of those who are 
affected by the earthquake as well as the first responders who have 
come from near and far. I also want to acknowledge the magnanimous 
generosity of those who have contributed to the relief efforts in 
Haiti. As we move forward, the United States and the international 
community must assure that investments made in rebuilding Haiti are 
actually carried out through community-based organizations, faith-based 
entities, nongovernmental agencies, and nonprofit organizations. My 
personal hope is that a new generation of leaders will emerge from 
these ashes to selflessly lead Haiti onto a new path of prosperity 
through integrity, hard work, transparency, perseverance, and true 
democracy.

    The Chairman. Thank you very much, Dr. Francois.
    In fact, thank you--thank you, all of you, for helping to 
really lay out the magnitude of the challenge here and put a 
lot of ideas on the table about things we need to think about.
    We--in the timeframe that we have, I think, if we do 7-
minute rounds, then every Senator ought to have an opportunity 
to be able ask questions. And if we could ask you to keep the 
answers tight--obviously encompass everything that you want to, 
but we want to try to cover a broad swath here, if we can.
    On a personal note, let me just say, Dr. Farmer, speaking 
as a dad, I want to thank you for the example and the 
opportunity that you have shown my daughter, who I know just 
values enormously the relationship and what she's learned 
working with you. And I want to thank you for that.
    Let me begin by asking--I want to come back to the 
framework that you raised, Dr. Farmer, about the rules of the 
road, and I think it's very important to look at that. But, let 
me just ask you very quickly, any of you, about an immediate 
challenge.
    There's a lot of concern about the access to food in Haiti, 
and whether or not there are adequate levels and if the food is 
being appropriately distributed. And WFP has requested 
emergency funds to feed 2 million people over the next 15 days, 
essentially flooding food into the arena. Can you speak, very 
quickly, to this question of the adequacy of food and assess 
the current food distribution efforts?
    Dr. Farmer.
    Dr. Farmer. Thank you, Mr. Senator.
    In the short term, it's difficult to think of an 
alternative to WFP, which has the procurement capacity. I mean, 
it's hard to find other groups that might have that kind of 
procurement capacity, other than the ones noted by my 
colleagues testifying here today, which is remittances, cash 
transfers to households; that will also work to allow people to 
buy their own food.
    At the same time, the rules of the road--I would go back to 
those even for a group as august as WFP. For example, how can 
we focus on local procurement of foodstuffs so that food 
insecurity in Haiti is not heightened by the huge, but 
necessary, influx of food from abroad right now?
    And I just could, you know, give one small example from our 
own work in central Haiti, which I've shared with my colleagues 
at WFP. We have--the proper treatment, not surprisingly, for 
malnutrition for children is something called food, and we grow 
peanuts--mostly, but it can be other grains as well--peanuts 
locally, and make what is essentially peanut butter, which is a 
ready-to-use therapeutic food, you know, and is enriched with 
vitamins, right there in local food-processing plants in 
central Haiti. And we've gotten the WFP to support that. And 
so, if we ramp up production of an endeavor like that in a 
moment like this, if we get the right kind of peanuts, 
multivitamins, other things that are needed to enrich this 
paste, we'll have done several things at once: One, we'll have 
responded to the acute need, which is extreme. I mean, it's 
very upsetting, to put it frankly, how hungry people are right 
now. Number two, we'll have bought local produce from local 
farmers. Number three, we'll have created jobs in processing 
plants.
    And, you know, it's not unthinkable that a processing plant 
like that could be scaled up to respond to needs elsewhere--in 
other parts of the country, certainly, but also other parts of 
the world. So, I think the rules of the road still should 
include, what's your plan for local job creation? How can we 
link our very needed short-term interventions to long-term 
interventions that will not leave Haitians dependent?
    The Chairman. So, that raises the question, How do you get 
from here to there? I mean, as I listen to you say, it'd be 
great to ramp up the production, it'd be great to, you know, 
engage the local community. Who's going to do this? I mean, one 
of the things that has struck me as I talk to various groups on 
the ground--and we've been dealing with various, sort of, 
hotspots--is, Who's going to--Who's coordinating this overall 
effort? Who's going to call the shots and say, ``You got to get 
the debris out of here, and here's where the debris is going to 
go, and here's the rebuild, and here''--you know, you begin to 
organize all of that. There are a lot of free actors floating 
around. Can you speak to this question of who's going to both 
direct and enforce these rules of the road? And how do we get 
the kind of coordination necessary to make sure that we are 
shifting to a Haitian solution as fast as possible?
    Dr. Farmer. I'm sure that my colleagues have thoughts on 
this, as well, but I would say the way that we do this is 
actually write it into the rules of the road for our--as a 
condition for some of our aid--not a condition on the 
recipients, but, rather, the condition on the donors.
    Some of the problem--if you go from, say, the Marshall 
Plan, which you've talked about, you know, many times over the 
last few years--if you go from the Marshall Plan to some of the 
legislation written by the Senate, 1961 to now, you'll see, you 
know, the rise of a class of contractors, again, who can 
provide useful services that are difficult to obtain in 
settings like Haiti or the places Mr. Dobbins mentioned. That's 
true. But, I think if we shift the rules formally and say, 
``This aid is dependent on our reforming ourselves, in a 
way''--so, I think part of it is really in your hands.
    On the ground, what I saw--you know, and I--it's very 
possible--and I've been writing a little bit about this from 
Haiti--to bemoan the lack of coordination. But, what I'm seeing 
is going from this chaos, as you might imagine the first nights 
afterward, to a little bit more coordination and a little bit 
more coordination, et cetera. So, the U.N. is trying to 
coordinate along lines of the health cluster, and that 
structure is emerging right now. And I think it's probably the 
necessary structure.
    And then, finally, on the district level--I mean, most of 
this stuff is happening in Port-au-Prince, as you know, but on 
the district level there are 10 districts in Haiti, 10 
``departments,'' they're called. There need--needs to be a 
really locally driven process there. And this may not be the 
most popular thing to say, but in 1995, when Rwanda laid down 
the law, saying, ``If you, as an NGO, wish to work here, you 
have to follow the following rules. You have to fit into our 
development plans.'' You know, it's estimated by some that half 
of the NGOs left Rwanda in a huff. And there were all sorts of 
critiques of Rwanda at the time. But, I think, in retrospect, 
many would argue that they really were right to push forward a 
tough line on this.
    So, I--you know, in summary----
    The Chairman. Right.
    Dr. Farmer [continuing]. I think part of it's going to be 
in your hands, and part of it is going to be in the hands of 
the U.N., and part of it's going to be in the hands of the 
local government.
    The Chairman. Mr. Dobbins, you've been on the institutional 
side of this. What are your thoughts about the rules?
    Ambassador Dobbins. I think it's useful to make a 
distinction here between the relief phase. Now, if there's one 
thing that the international community and the United States 
does well, it's disaster relief in these kinds of situations. 
It looks messy when 1,000 different autonomous organizations, 
NGOs, governments, and international institutions all show up, 
but it works, and it works remarkably well. And it is working 
in Haiti. That doesn't really require fixing, in my view. It 
requires resources, but people are generous, and it is the 
best-resourced thing the international community does.
    You then have the question of moving beyond relief to 
recovery, and driving that recovery toward institutional 
reforms that will make future relief operations less necessary. 
That does require more hierarchical structure. I think the 
United States needs to help design such an effort, and it needs 
to help drive such an effort, but it shouldn't, itself, be the 
flag on which that effort is put.
    The Chairman. Fair enough.
    Ambassador Dobbins. As you suggested, I think the U.N. 
needs to coordinate and become the flag under which political 
reform and reform of the security sector takes place. And I 
think the World Bank is the logical focus for planning and 
conditioning assistance across the economic and social 
spectrum.
    The Chairman. Thank you, sir.
    Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman.
    Following up on the chairman's thought about who is in 
charge and how the government is to proceed, I would like to 
ask for your comments by citing a very interesting poll that 
appeared in this morning's Miami Herald, with the headline 
``Haitian-Americans Dissatisfied With Haiti's Response to 
Disaster.'' This poll, conducted in both Creole and English, 
found 63 percent of the 400 Haitian-Americans surveyed 
disapproved of how Haitian President Rene Preval's government 
has responded to the earthquake. The unhappiness runs so deep 
that a majority of Haitian-Americans support the United Nations 
and the international community taking over Haiti's day-to-day 
operations, at least until Haiti recovers from the catastrophe.
    Interestingly enough, an overwhelming majority of those 
surveyed were happy with the United States Government's 
response. In fact, 96 percent approved what we had been doing. 
Additionally, 88 percent approved of the United Nations 
response. Furthermore two-thirds of the Haitian-Americans 
polled are so concerned for Haiti; they'd be willing to move 
back there temporarily in order to assist with the 
reconstruction.
    I cite these figures to first make the point that Haitian-
Americans have never expressed this level of satisfaction for 
any U.S. response to the many unfortunate afflictions the 
country has faced in the past. Second, not only are Haitian-
Americans receptive to a strong U.S. role in the response to 
the earthquake, they are also largely in favor of sustained 
U.N. participation. Though these Haitian-Americans do not see 
it as immaterial as to which party takes charge, they do 
believe that one or the other had better do so.
    The respondents to the poll also assert that President 
Preval is not a good communicator, and that he has not 
addressed the nation since the earthquake occurred. Public 
relations may not be his forte. But, the fact remains that he 
is Haiti's leader, and the Haitian Government has to be 
reconstructed in some form, even if the United Nations and the 
United States take effective control of reconstruction efforts.
    My statements are all in preface for asking for your 
judgments on Haiti's political future. What is going to occur? 
The common thought is that this earthquake has been a disaster. 
Futhermore, going forward, most believe that it will continue 
to be a disaster, because of the Haitian Government's lack of 
political sophistication, capacity to effectively respond to 
the crisis, and ability to strike any sort of rapport with the 
Haitian people. As I've noted, we even have Haitian-Americans 
saying, in essence, that ``We're so concerned we're prepared 
even to move back to Haiti temporarily in fairly large numbers 
for a while to try to bring some relief to the process.'' I 
believe all of this reflects the lack of almost any confidence 
on behalf of a majority of observers regarding the Haitian 
Government's ability to effectively respond to this crisis. Do 
any of you have any thoughts about the question of effective 
future governance there?
    Yes, Doctor.
    Dr. Francois. Senator Lugar, essentially my thought again, 
is about the analogy of how we respond to a tragedy or a 
hurricane here in the United States. What happens is that, 
whether it's Florida or Louisiana, we may ask the Federal 
Government for help. And, likewise, Haiti is now in dire needs 
of an international response. What's different is that the 
infrastructure and the plans that are in place in probably 
every State, is that you have an infrastructure where the 
Federal Government can come in and insert itself to support 
that response. That sort of framework is totally absent.
    In 2006, as secretary of health for Florida, we made a 
public health mission trip to engage the leadership about 
preparedness. And you can tell, from the lack of the response, 
that we were not taken up on that--on that offer.
    So, essentially, I think that, because of that lack of 
existing infrastructure, you really need the--a coordination 
of--for example, from the United Nations, to sort of lead that 
response, because it's certainly nonexistent on the ground. 
That makes it more difficult, because the folks coming in don't 
really know the terrain, which, again, that knowledge could 
have been facilitated by existing plans on the ground, which, 
again, are nonexistent.
    Ambassador Dobbins. Senator, I suspect the Haitian-American 
community wouldn't object if Haiti became the 51st State, but I 
don't think, probably, the rest of our--or your constituencies 
are going to support that. So, I don't think we have any option 
but to try to rebuild a Haitian state structure, one that's 
more resilient, more capable than what we have today or had a 
year ago. And therefore, I do believe that state-building is 
the core--the core mission of the post-relief phase.
    Dr. Farmer. Thank you, Senator.
    You quoted the Miami Herald today, but in the Washington 
Post today there is something, I think, of equal note. It says, 
``Haiti Government gets minimal aid. Less than a penny on each 
U.S. dollar is sent to leadership.'' And that's almost 
certainly true. None of this money that's pouring into Haiti is 
going to the government.
    And I just want to--just a few vignettes of, again, whether 
that would be an effective way or not. I don't know; it's not 
my area of expertise. But, just a few examples from the last 2 
weeks in Haiti.
    I mean, before the hurricane, looking at the budgets of 
money going to, for example, the U.N. for, you know, the U.N. 
presence there, the budget for IT, information technology, was 
larger than the combined budget, I believe, of the Ministries 
of Health and Ministry of Education, together.
    During the Gonaives hurricane, when we were told that the 
roads were blocked and that the city was inaccessible and there 
was no one there, that was not true. The roads were not blocked 
and the director of public health was at his post, but he had 
no tools to do anything. And I was with--on--right after the 
recent earthquake, with the Minister of Communication. She did 
not have a phone. You know, I gave her my phone. I mean, these 
kind of absurdities go on and on.
    The university hospital, the general hospital, when we got 
there, late at night, we found--at 10 o'clock at night, we 
found the director of the hospital and director of nursing, who 
had, herself, just had a grandchild the day before and had lost 
the family and home. They were there at work. But, they have to 
have the tools of the trade. And as it's true in medicine, so 
it must be in all of the other arenas of engagement.
    So, I would say that, in addition to appropriate skepticism 
about the capacity of the now devastated government to 
implement some of these necessary interventions, we also need a 
healthy dose of skepticism regarding, as I said earlier, the 
way our aid has been funneled so exclusively to the 
nongovernmental sector.
    Senator Lugar. So, the recommendation is more aid to these 
government officials to give them a chance to respond, in 
addition to continued assistance to NGOs and the rest of those 
on the ground there.
    Dr. Farmer. Thank you.
    The Chairman. Senator Dodd.
    Senator Dodd. Well, thank you very much, Mr. Chairman.
    And I'm going to ask consent that some opening comments be 
made available in the record----
    The Chairman. Absolutely.
    Senator Dodd [continuing]. If we can, and try to move this 
along.
    [The prepared statement of Senator Dodd follows:]

            Prepared Statement of Hon. Christopher J. Dodd,
                     U.S. Senator From Connecticut

    I want to thank Chairman Kerry for holding this hearing, and our 
distinguished witnesses for sharing their expertise with us today.
    I want to extend a special greeting to my good friend Dr. Paul 
Farmer. Paul has been active for years in helping the most vulnerable 
in Haiti and around the world. His organization, Partners in Health, is 
one of many already operating in Haiti that has heroically gone above 
and beyond the call to respond to this earthquake.
    We should begin by acknowledging that, aside from the monumental 
policy challenges posed by the disaster in Haiti, the Haitian people 
have experienced a tragedy on an unimaginable scale. Estimates of the 
death toll are in the hundreds of thousands, with countless others 
injured, homeless, orphaned, or in desperate need of food, water, 
shelter, and medicine.
    The numbers merely hint at the scope of this catastrophe. The 
Haitian people have spent generations watching their country teeter on 
the brink of collapse, as government after government has done little 
to fight corruption, ignored the rule of law, and failed to provide 
basic security and social services. Battered by natural disasters and 
shocking poverty alike, Haiti has one of the lowest life expectancies 
in the world.
    Haiti was just beginning to turn a corner toward a brighter future 
when this earthquake struck. Now, sadly, the Haitian people must once 
again start over.
    This tragedy, as could have been expected, has brought out the best 
in the American people. From the rescue workers, men and women in 
uniform and State Department, Embassy, and USAID officials risking 
their own lives to bring comfort to the victims to the ordinary 
Americans texting donations to assist in relief efforts, our people 
have sent a clear signal to the Haitians: you are not alone.
    The United States Government must also act to help the Haitian 
people shoulder the burden of rebuilding their country and moving 
forward in the wake of this disaster.
    In the short term, I believe it is incumbent upon the Obama 
administration to bring our allies together to establish security and a 
sense of order in Haiti. Considering how much of the country's 
infrastructure and government personnel have been lost, I would like to 
see the United Nations take on a more active role in day-to-day 
governance, in close partnership with the Haitian authorities.
    The U.N. would lead an international effort to help the Haitian 
people get back on their feet, assisting in the rebuilding of 
infrastructure, institutions, and lives--while working to ensure that 
those who have been driven out of their homes by the destruction of 
Port-au-Prince are resettled.
    I've also suggested that the Obama administration help to 
coordinate Haitian-American volunteers in the United States by forming 
Hometown Associations, small groups of community members who could use 
their unique experiences and skill sets to do things like serve as 
interpreters, support the temporary resettlement of refugees, and 
provide assistance to the most severely wounded Haitians who are 
evacuated to the United States for medical treatment not available on 
the island.
    For our part, I think Congress should focus on alleviating the 
economic crisis that lurks behind the immediate humanitarian crisis in 
Haiti.
    Senator Lugar and I will be introducing legislation this morning 
instructing the Secretary of the Treasury to work with other nations to 
relieve Haiti of their outstanding international debt, including debt 
incurred through 2011. Additionally, our legislation will help to spur 
economic activity, which is an absolutely essential element in the 
recovery process, by promoting trade between the United States and 
Haiti. Last, our bill will instruct the U.S. Government to work with 
the Inter-American Development Bank to implement an infrastructure 
development fund that should be used in invest in Haiti's critical 
infrastructure, including roads, power lines, clean water and 
sanitation.
    These are steps we can take right now to help Haiti rebuild and 
recover, and in my mind, they represent the beginning, not the end of 
our efforts. Over the coming weeks and months, I look forward to 
working with other members of this committee, including the chairman, 
on legislative ideas that can be begin to tackle the more long-term and 
systemic roadblocks that Haiti will face.
    But we shouldn't imagine that our work will be short or simple. 
This burden requires many shoulders. President Obama has already 
pledged the full support of the American people. Let us do the same.

    Senator Dodd. But, again, to you, Dr. Farmer, we thank you 
immensely. And I've enjoyed a good relationship with this 
gentleman for a long time, and commend him immensely for his 
work in Haiti and elsewhere.
    Jim Dobbins and I have worked together on numerous issues 
over the years.
    And, Dr. Francois, welcome, as well.
    I want to pick up on this whole point. Even prior to the 
events of 2 weeks ago, in many ways, and having grappled and 
worked in Haiti for various years, going back to my Peace Corps 
days, 40 years ago, on the border with Haiti and Dominican 
Republic--even absent what has occurred over the last 2 weeks, 
in many ways Haiti has been a failed state. On countless 
occasions, those of us, either on this committee or elsewhere, 
have worked, at various times, to try and provide assistance. 
And we have had the obstacles of refusing to provide assistance 
to even governments that were questionable in their 
effectiveness or the levels of corruption that existed, and the 
like, in Haiti.
    And so, in a way, I think the point of, one, dealing with 
the immediate problems of seeing to it that we're getting 
resources to get people through this period of time. And while 
doing that I suggest the idea that, given the magnitude of this 
tragedy, this offers an opportunity, frankly, to do some things 
that people have talked about for decades in Haiti, and yet, 
for various reasons, have been unable or unwilling to grapple 
with. And that is to start talking about the long-term ability 
of this country to become self-sufficient, both in terms of its 
ability to feed and house itself, as well as to govern itself. 
And that's the opportunity that I think we've been offered, not 
just our country, obviously, but the community at large. So the 
question is, How do we do this? And I think there are some 
wonderful suggestions here.
    We ought not to get into the debate as to whether or not we 
need to continue to provide for the immediate needs. But, I 
think we really need to get into this discussion very quickly, 
as to how we're going to emerge from this tragedy with the 
opportunity to do some things that we've never, for various 
reasons, been able to achieve before.
    But, if you asked me the question, which I wouldn't know 
the answer to, today ``Who should I call in Haiti if I wanted 
to talk to someone about this?'' my impression is, there really 
isn't anyone to talk to, at this point, while we're down there 
basically wandering around trying to provide assistance, where 
we can, to people through existing organizations.
    Senator Lugar and I are introducing legislation today. Jim 
Dobbins, you talked about it, in terms of the barriers to 
trade, the debt issues. These may not seem like much, but they 
go to the heart of what Paul Farmer is talking about, and that 
is getting beyond this immediate need, and getting to the 
question of how we can start to provide work.
    I don't know why, for instance, we're not suggesting today 
that--just putting people to work to clean up rubble, you could 
be paying people $2 or $3 a day, and doubling their income, 
just to create the arteries so that assistance can get to 
people at this particular point. I mean, it's things that can 
be done immediately to provide some longer term economic hope.
    And I wonder if you might flesh this out. Is it too wild a 
suggestion to be talking about, at least temporarily, some sort 
of receivership? If this were any other entity, we'd be talking 
about it being completely bankrupt and to the extent then we 
could talk about some sort of international receivership of 
this country to begin to then not only provide the immediate 
relief, but also then to start to provide the assistance to 
them to build. I'm fearful that what you're going to have 
happen is that this goes right back to where it was before: the 
handful of entities in Haiti that have run the show for years 
and years, economically and others, a small group of families 
run the country. We all know that, at the end of the day. In 
the midst of all of this, I'm fearful we're going to roll right 
back into that situation again, only the conditions will be 
worse.
    So, what about the idea of some sort of international 
receivership for Haiti for the next 2 or 3 years so that we 
can, one, do the immediate needs--provide the immediate needs, 
but, second, start to provide that kind of support and 
assistance that would build or construct a set of institutions 
that would allow them to provide for their own self-
sufficiency?
    Ambassador Dobbins. Well, there are certainly precedents 
for that. We've set up provisional international 
administrations in East Timor----
    Senator Dodd. Right.
    Ambassador Dobbins [continuing]. In Kosovo, in--and in one 
or two other situations like that. We've done that in cases 
where there was no local government or where we overthrew the 
local government. I don't know of any in which we displaced an 
existing government that was universally recognized. And so, I 
think that it would be controversial and difficult to simply 
impose an international administration in Haiti, unless there 
was, you know, a pretty clear demand within Haiti for that kind 
of----
    Senator Dodd. It sounded like, in his poll that was 
conducted this morning----
    Ambassador Dobbins. Well, there's a clear demand in the 
Haitian-American community. But, that's, I think, a little 
different than a clear demand in Haiti. So, I guess I'd be--
there are precedents. It has been done.
    Now, frankly, you know, we don't do this all that well--the 
Coalition Provisional Authority in Haiti, the U.N. missions in 
Kosovo and in East Timor--they've been successful, but they've 
had difficulties. I mean, this is not easy to do.
    So, I do tend to think that a supportive role--clearly, the 
international community is going to be providing most public 
ser-
vices in Haiti. In fact, they already were, before the 
conflict. But, whether you'd want to formalize that, I'd be a 
little skeptical, Senator.
    Senator Dodd. Paul, any thoughts on this?
    Dr. Farmer. I think that, given the extremity of the 
circumstances, you know, I wouldn't be surprised if you'd hear 
support in Haiti, on the streets, as they say, in the same way 
that you did among Haitian-Americans.
    That said, I think there must be another way to do this 
accompaniment of an extremely fragile civil service and 
government.
    And the problem, as you and I have discussed on a number of 
occasions, all this see-sawing policy, you know, this flipping 
back, especially over the last 2 decades. And it has taken a 
toll, because, you know, if you--if the policy is, ``OK, we're 
going to bypass, completely, the public infrastructures, and 
only support, with our aid, the NGOs''--and you made this point 
in 2003, in this very room--then--that we're harvesting some of 
that now. There is--that's why things were--the government was 
weak before January 12.
    So, I think--and I'm not really qualified to comment on 
receivership; I just don't know enough about it, and I know 
there are other people here who do--I think there will be 
resistance to that, and I think that we can find a means of 
accompaniment.
    And, you know, just back to the example of gainful employ 
for the hundreds of thousands of people, or millions, really, 
who need employment now--I mentioned--again, I'm troubled by 
the title ``cash for work,'' because it's so absurd.
    Senator Dodd. Yes.
    Dr. Farmer. But, if we were to put significant amounts of 
our support in the cash-for-work programs that are around 
watershed protection, agricultural endeavors, and made sure 
there is gender equity or focus on women, especially in these 
efforts, we could have substantial transfer of resources to the 
poor and the needy. And if we do that with an eye, as in 
Rwanda, toward strengthening the local government structure, I 
think that would be a better received.
    But, of course, people are at the end of their rope, as you 
are guessing.
    The Chairman. Senator Corker.
    Senator Dodd. Dr. Francois, do you have any quick comments 
on that all? Quickly.
    Dr. Francois. Sorry. My only comment would be to refer to 
that Haiti Advisory Group that was put together. And, again, as 
I mentioned in my testimony, those recommendations are very 
much alive and could be very useful as we move forward.
    The Chairman. Senator Corker.
    Senator Corker. Mr. Chairman, thank you.
    And I want to thank our witnesses.
    My sense is that Haiti is a place where we have an 
opportunity. There's universal support of the people of Haiti. 
I think all of us, in some form or fashion, have been touched 
by Haiti. I can absolutely say I would not be in the U.S. 
Senate today without having been to Haiti in 1982. And I know 
that there are Americans all across this country that have been 
involved there and certainly are touched and saddened by what 
has occurred. It does seem like we have an opportunity to get 
this right. And I appreciate the analysis that has been given, 
and also appreciate the comments by my friend from Connecticut.
    I have to tell you that there's no question in my mind, we 
need to do whatever is necessary right now, as far as pouring 
resources in. And we just need to be in charge, and that's 
what's happening; the international community is in charge.
    I think there's no question that all of our efforts in the 
past to do good things, which many of you are involved in, in 
some ways do undermine the government. Because we all--let's 
face it--we all--every volunteer group, every NGO does what it 
does in Haiti in spite of the government. We work around the 
government. That's what everyone does. And I think that the 
notion of building the government up in some form or fashion, 
that's an important concept.
    And I think your reference to Rwanda, which I would say--
with dramatically different leadership, let's face it--it is a 
great example of what can happen.
    I guess, as I listen to the very good analysis, Mr. 
Dobbins, about some of the things that need to occur, I still 
have difficulty understanding how we're going to transition 
from what we all need to do, whatever it takes now, to causing 
Haiti to actually take the lead.
    And I--while maybe ``receivership'' is not the right word 
to use, I have to tell you, for a period of time I think 
something far more draconian than just us working behind the 
scenes to prod reforms and those kind of things are going to be 
necessary.
    And so, I think we're saying the right things, concepts-
wise, but I find it very difficult to believe, with the type of 
leadership that Haiti has had--we see people here in Haiti 
flourish under good government. We know that government has 
been an absolute disaster for generations in Haiti, and it, 
unfortunately, has held wonderful people back from reaching 
their potential. And I sense that we're going to have to do far 
more draconian things to cause the country to function.
    And I wish you would expand just a little bit more. I 
don't--I mean, the concepts you've laid out are great. I just 
don't know how we get from A to B without us taking a much, 
much stronger role than what you've signified, as it relates to 
rebuilding.
    All kinds of urban development opportunities. I mean, 
there's tremendous opportunities just in how we lay out 
infrastructure and change cities like Cite Soleil and other 
kind of places, which can never flourish in their existing 
form. There are things we can do now that I don't think the 
Government of Haiti ever will have the ability to do in the 
short term.
    Ambassador Dobbins. I think it's important to understand 
that in Haiti we're now superimposing a relief and recovery 
operation on top of an existing post-conflict stabilization and 
reconstruction operation. In other words, there has been 
international operation in Haiti, with 10,000 troops and about 
a billion dollars a year of assistance, since 2004, which was 
actually beginning to make a difference when it was set back, 
first by a series of hurricanes and then by this latest and 
largest disaster. So, there are, in fact, reform programs that 
are agreed internationally, that are--in many cases, are agreed 
with the Haitian Government, that are in place and were 
beginning to have effect.
    We now need to redouble our effort to complete those 
reforms. We need to evaluate whether there are new and more 
ambitious reforms that could be put in place as the result of 
the greater flexibility of the Haitian system, created by this 
disaster and the additional resources. We need to evaluate the 
new ideas that are coming forward.
    But we--what we need to make sure are that the new 
operation operates synergistically with the old operation and 
the old structures that were set up.
    I do believe that we--that, as I suggested, somebody in the 
U.S. Government, in the administration, needs to be made 
responsible for the overall American policy toward Haiti, 
toward integrating that policy with other governments, 
representing it with the Haitians, and working with the 
Congress. I think the Congress needs to provide that individual 
with the resources necessary, and the flexibility, so that they 
can choose carefully those targets for assistance of that sort.
    I do think that, for instance, in the question of 
infrastructure, you know, actually bricks-and-mortar stuff, our 
experience in Iraq suggests that simply building things for 
people is of little enduring value if they haven't invested--
and if they--and if you don't have a contractual plan in which 
there is funding--a funding stream for maintaining that 
infrastructure once you've built it.
    We built a whole bunch of electric plants in Iraq. Iraqis 
weren't charging for electricity. And since they weren't 
charging for electricity, there was no resource stream that was 
going to maintain those electric plants once they were built. 
When the World Bank builds an electric plant, they require a 
plan which has that kind of built-in resource stream that will 
sustain the project.
    So, we do need people who know how to do these things, who 
have done them before, I think, to take the lead, set the 
criteria, establish the conditionality, and then use our 
political influence and our money to make sure those conditions 
are met.
    Senator Corker. Well, thank you for your testimony.
    Mr. Chairman, I thank you for having the hearing, and I 
hope that--we very seldom, candidly, have a--much of a way to 
make a lot of difference--I hate to say it--on this committee. 
I hope that, somehow or another, we will keep a focus on this 
panel----
    The Chairman. I hope you're speaking for yourself on that.
    Senator Corker. Well, you did a great job with Karzai, and 
I'll say that again. But, it really----
    [Laughter.]
    Senator Corker [continuing]. The fact is that this is an 
opportunity for us, I think, to continue to put pressure--to 
make sure that more draconian steps are taken, instead of 
willy-nilly kinds of things that have yielded the same kind of 
results.
    And I thank you for the hearing, and for your testimony.
    The Chairman. Well, I couldn't agree with you more, 
Senator, I think--and we'll come to that point, after Senator 
Shaheen. But, I don't disagree with you at all. I think this is 
a moment, and I think it's going to take a tough hand of 
leadership.
    I noticed the vote has not gone off, so in true Senate 
fashion, we're kind of drifting along here. [Laughter.]
    We can extend the time a little bit and have a second 
round, which is good.
    Senator Shaheen.
    Senator Shaheen. Yes, I prefer to think of it as an 
opportunity to finish my questions. So.
    I want to thank each of you for being here, and for your 
insights into this horrific human tragedy. I share my 
colleagues' gratification at the outpouring from not only the 
United States, but from the rest of the world, to try and 
respond to this tragedy.
    And I guess my first question, before I ask more about the 
long term, is if each of you are satisfied that everything is 
currently being done that can be done with the short-term 
relief efforts. Dr. Farmer, you talked about how slow the 
relief efforts are, and, to a great extent, that's because of 
the lack of infrastructure. But, is there more that should be 
done right now to address those relief efforts?
    Dr. Farmer. Thank you very much, Senator.
    I think there is a mismatch between the degree of interest 
and resources that we, including we as a nation, are putting 
in, and the ability to absorb it, which is the--you know, the 
fruit of failed policies in the past. Now, that--in the middle 
of an emergency like this, you're not going to spend a lot of 
time on diagnosing----
    Senator Shaheen. Right.
    Dr. Farmer [continuing]. That problem. And so, I would say, 
yes, there is more that we can do, but it's very specific 
things. For example, you bring in surgeons, but you have to 
also bring in supplies and long-term nursing, et cetera.
    And if I could bring this back to our previous discussion--
and I used the word ``accompaniment''--if we have the patience, 
even for the relief work--because the relief work is not going 
to be over in the next weeks--if we have the patience to 
accompany properly the various actors on the ground, which 
include, of course, lots of NGOs and church groups, et cetera, 
but also the remnants of the Haitian public health and public 
education sector, I think we'll have reward in--you know, back 
to Senator Corker's question. You know, if you, say, for 
example, had a division between the NGOs in Haiti--a division 
of labor--and the international financial institutions, like 
the World Bank, and you said to the NGOs, ``Look, part of your 
job now is to find a way to help accompany this shattered 
public infrastructure back, whether that be schools''--and 85 
percent of schooling in Haiti is private. So that--and, to me, 
if you look back and say, ``That's one of the reasons Haitians 
are not very literate, because they have these''--they call 
them ``l'ecole borlette,'' you know, like lottery schools, 
because you take your chances when you go there. So, we need to 
have a Ministry of Education that could insist on proper, not 
just building codes, but curriculum. And that's going to take a 
patient kind of relief accompaniment. Same for health care.
    And I'd just like to, again, sound a note of great 
optimism. When we--I've been in Haiti, as I said, 25 years. For 
the first 15 years of my engagement--and our engagement--we did 
not do this the right way. We had a lot of good will, we built 
a hospital in a squatter settlement. We're very proud of it. I 
was there Sunday morning. It was spotless. There were people 
lying on the floor who had been tended to and had casts and 
were post-op. You know, all the beds were full. So, I was very 
proud, and all of us are.
    But, what we really needed to do, which we did over the 
last decade, was to say, ``How can we do this same thing in the 
public health sector, with the Ministry of Health?'' And so, we 
did. And we created thousands of jobs, and strengthened and 
rebuilt these public hospitals. That's an M.O. that I endorse, 
not because we did it, but because it's an effective way of 
addressing this lack of absorptive capacity in the public 
sector.
    And I think the same can be said for--and it's more 
difficult with agriculture, of course, because those are 
privately held fields, many of them. But, at least for health 
and education, NGOs have to do this. ``Do this,'' meaning what? 
Support the weak public sector.
    One of my colleagues just passed me a note saying that the 
Haitian Government is looking for $3.4 million just to pay rent 
for office space. Who can deny that they have no office space? 
Their--all their federal buildings collapsed.
    So, then that's a transition--and I'll stop--just to the 
private investment part. Haiti does not want to be dependent of 
foreign aid any more than Rwanda does. And Rwanda's vision for 
development is called Vision 2020, and it says by 2020 there 
will be no foreign aid going into Rwanda. In order to do that, 
of course, we need job creation and private investment.
    I had been working a lot with the Inter-American 
Development Bank, and I can tell you, again, to sound a note of 
optimism, last fall all the hotels in Port-au-Prince were full 
of people who'd come in to invest in Haiti from Latin America, 
Haitian investors. Couldn't get a hotel room. We were going to 
have a meeting this week in the Montana Hotel, which, 
unfortunately, just collapsed. But, it was for investors. So--
from Ireland--so, I think there is good news out there, if we 
can just marshal our resources.
    Senator Shaheen. Well, to follow up a little bit on what 
Senator Corker raised, and to go back to what I think each of 
you are saying, as you look at longer term, is the first 
priority governance--assistance with governance in Haiti? And, 
if that's the case, then who should we look to to take 
responsibility to do that? Is it the international community? 
Is the United Nations the entity that's going to get that done? 
Is it oversight from this committee and our State Department in 
the United States that's going to get that done? Is it pressure 
from the Haitian-American community? Who takes responsibility 
to get that--if it is governance--to get that done?
    Ambassador Dobbins. I--as I suggested, I mean, I think that 
the--that in the security sector--police, courts, prisons--and 
in the general political support of the Parliament--elections--
I think the U.N. is the best place to do those.
    I think, in terms of resuscitating ministries, like the 
Education Ministry, Transportation Ministry, Agricultural 
Ministry, and the Health Ministry, it's probably somebody else.
    It may vary. A single country may decide, ``OK, we're going 
to fund public education in Haiti.'' And Japan or the United 
States or someone else will say, ``That's going to be our 
sector. We'll do public education.'' It has to fit in a broader 
framework. Or, as I've suggested, the World Bank or the Inter-
American Development Bank may take a major ministry or a 
major--you know, recreating downtown Port-au-Prince as their 
focus, and become the main funder and coordinator of other 
funders in that.
    I do think that a division of labor between the World Bank 
and the U.N. should be the two primary international 
institutions. I think the United States can be very 
influential. But, I think that, you know, an American czar who 
sits in Haiti and makes these kinds of decisions would probably 
be counterproductive.
    The Chairman. Senator----
    Senator Shaheen. Yes.
    The Chairman [continuing]. I'm going to have to cut you 
off.
    Senator Shaheen. Thank you.
    The Chairman. Senator Cardin.
    Senator Cardin. Thank you very much, Mr. Chairman.
    And let me thank our witnesses. I think this has been a 
very helpful hearing.
    We're looking--the Congress is looking at our foreign aid 
programs and how we restructure our foreign aid programs and--
in order to use foreign aid more effectively in carrying out 
U.S. objectives internationally. And at a previous hearing, I 
raised the issue on gender-matters issues and how many of the 
countries that we do business with, their record on gender 
equality is very, very poor, and how can we focus our foreign 
aid program to be more effective in carrying out that 
objective.
    When we look at Haiti and look at our previous foreign aid 
commitments in that country, we certainly were not terribly 
successful, as it related to the governance issues, as we've 
seen in this crisis. So, the question is basic, What can we 
learn from Haiti as we look at trying to restructure our 
foreign aid programs internationally?
    What can we learn from Rwanda? I was--Mr. Farmer, I was 
very impressed by your observations of the progress that's been 
made in Rwanda. I mean, how do we sort of learn from our 
experiences so that we not only focus on what needs to be done 
in Haiti, from the point of view of longer term sustainability, 
including governance issues and international assistance and 
investment and jobs, but what can we change in--I guess, in the 
overall strategy of this country, in trying to avoid another 
Haiti in the future?
    Dr. Francois. Thank you, Senator.
    I believe that, you know, that change that you're referring 
to has to begin inside Haiti. And when we talk about, you know, 
governance and leadership, again, we have to remember that this 
country rose to become independent back in 1804. So, again, I'm 
personally, you know, skeptical about trusting entities that, 
in my opinion, have not delivered. Again, all you have to do is 
look at the response, or lack of thereof, of the leadership in 
Haiti.
    So, as we move forward, I believe that we need to partner 
with leadership that has utmost integrity, leadership that puts 
Haiti and the Haitian people first.
    Senator Cardin. But, here's the dilemma. We can't--
governments are what they are. Yes, we can try to impact them 
and impact the way that they develop the institutions of 
democracy that can protect their people from not only natural 
disasters, but from abusive practices of a government. That 
needs to be part of our strategy.
    I guess my point is, How do we structure our foreign 
assistance budget that does not become a tool for anti-American 
intervention in the country, but is--uses the right incentive, 
so that when we put money into a country, we know that it will 
get to the purposes for what we intend?
    Ambassador Dobbins. Let me offer a rather self-serving 
response to that. We don't have a very introspective, 
reflective foreign-aid bureaucracy.
    The Defense Department spends a lot of time and a lot of 
money trying to find out what it did wrong. After-action 
reports, tactical, operational, and strategic lessons are a 
major element of military learning. And if you look at the 
military from--in Iraq, from 2003 to 2007, you see very 
substantial improvement, because they reflected on what they 
did wrong; they wrote studies, they changed the doctrine.
    We don't do that.
    The British aid agency spends a lot of its money on 
research and analysis, and gets people to tell them what 
they're doing wrong and how they could do it better. And 
there's no money in the AID budget for that kind of 
retrospective, ``What did we do wrong? How can we do better?'' 
Now, this is a self-serving analysis. That's what the RAND 
Corporation does. And we do it for the Pentagon all the time. 
And so, that's a--sorry.
    Dr. Farmer. I don't work for the RAND Corporation. And so--
but I want to echo what you say, as a volunteer. I mean, I'm 
lucky enough to be able to be a volunteer for all these--this 
quarter of a century in Haiti and Rwanda because I have a job 
at Harvard.
    But, I--and I want to say what you're--what you suggest is 
not at all self-serving. There is no real critical feedback 
loop in foreign aid. And we can easily develop that. We can use 
RAND or universities or other people who are not just trying to 
be part of the Beltway Bandit scene, but are really saying, 
``How can we improve the quality of aid and not have us looking 
back and saying, gee, you know, Haiti or Rwanda or whatever 
was''----
    I mean, Rwanda, for example, prior to the genocide, was 
called ``The Switzerland of Central Africa.'' And there's a 
book, by a man named Peter Uvin, called ``Aiding Genocide,'' 
which is about how the aid that was going in--massive amounts 
of aid--mostly from France and Europe, I believe, not from our 
country--actually set the stage for the genocide. And you'll 
see that--some would argue that the massive amounts of aid 
going into Haiti have actually served--inadvertently, I 
believe--to weaken, for example, food security.
    The good news is, with very--you don't need to be a nuclear 
scientist to figure out that some of the rules of the roads 
would be the ones you mentioned. For example, gender equity. 
What are the ground rules on job creation for women in a grant 
even to do with education and health, agricultural improvement, 
small business investment? And that's one--you know, job 
creation, gender equity.
    The--if half of--a lot of these big grants, half of it goes 
to overhead. And I've done some study of this at Harvard, 
looking at major grants in the health care sphere, where more 
than 50 percent doesn't leave the United States, or stays in 
consultancies, in overhead. I just think that's way too high. 
And we can create a lot of jobs just by tweaking the rules a 
little bit.
    And then, finally, I would say, integrating this into the 
district plans of these places--into the local plans--is 
difficult, but critical.
    Senator Cardin. That's very helpful. I appreciate that.
    Mr. Chairman.
    The Chairman. Thanks very much, Senator Cardin.
    We're on the back end of the vote here. We have a couple of 
minutes. I would just like to ask a couple of things.
    Some Haitians have complained that they haven't heard or 
seen very much from President Preval since the earthquake. Is 
that a fair criticism?
    Do you want to speak to that, Dr. Francois?
    Dr. Francois. Senator--Chairman Kerry, I've watched quite a 
bit of news on this tragedy. I have not seen President Preval 
but once, and what he said was that he lost his home. So, 
again, understanding, really, the magnitude of this earthquake 
and what it has done--again, it's--I can certainly understand 
that there would be an initial paralysis in any leader, but, 
from my perspective, crises, again, are where good leaders 
define themselves. So----
    The Chairman. Well, let me pin all of you down for a second 
here, because I want--we've got to try to pull this in. And I 
apologize. There are a number of questions, particularly about 
the aid programs, that we wanted to air publicly, that would 
be, I think, very valuable.
    But, let me get at, sort of--What percentage, would you 
say, of Port-au-Prince, has to be rebuilt now?
    Dr. Farmer. Just as an eyewitness, the majority of it. 
because, all--again----
    The Chairman. Are we talking about 75, 80 percent?
    Dr. Farmer. Seventy--75 percent, yes.
    The Chairman. Seventy-five-percent rebuild.
    Dr. Farmer. The standing structures are--there's this 
fecklessness of it, so you'll have a building standing or a 
home standing, surrounded by collapsed buildings. So----
    The Chairman. That is a--I mean, that's just a--it boggles 
the mind, to think about clearing the debris and where it's 
going to be put. And then to begin to contemplate the rebuild 
after that is--you're looking at several years of major 
investment and construction, correct?
    I don't see how this--I want to come back to Senator Dodd's 
concept. Maybe ``receivership'' is the wrong term. But, I don't 
know how you get this done with any semblance of normality, in 
terms of the approach. This has to be a kind of--a, you know--
and, again, I think this probably the wrong term, but it's 
almost--it's like a
D-Day invasion. I mean, you've got to have so many moving parts 
coordinated, and you've got to come in there with a new city 
planning concept. You got to have a vision for what you want 
this place to look like. And what kind of government buildings? 
And where are they going to be put? And will that contribute to 
the functionality, in the long term of the country? I don't see 
any entity, at this point, or movement--and I've talked to Dr. 
Shah about this--that suggests to me the global community is 
coming together around that kind of organizational effort in 
the way that it ought to.
    Dr. Farmer. I'd just like to get this out of the way, 
Senator. As someone who has been very much opposed to any 
encroachment on the sovereignty of Haiti, as someone who has 
underlined the dignity of the Haitian people and their struggle 
over 200 years for basic social and economic rights, and 
perhaps also underline some of my own country's previous and 
less than fruitful engagement, I would like to say that I still 
agree--you are right--there is not--we need--this task is so 
massive that we--you know, we need the international A-team on 
this case, working with the Haitian people. We still, you 
know--and I can tell you--in Haiti, I went to a meeting where I 
saw 40 or 50 Haitian architects and urban planners working 
under a tree, trying to work. So, I think there are people 
there.
    The Chairman. I'm convinced that this can be coordinated. I 
don't--it doesn't have to be the--I believe that this can be 
pulled together. I need to run and vote. So, I apologize for 
kind of--I believe it can be pulled together, and I think it 
can be done in a way that empowers Haitians. You can pull--you 
can work hand in hand. But, I don't think they would, for a 
second, balk at the notion that there's an expertise that is 
necessary, there are resources necessary, there's a level of 
planning necessary, and so forth, that they would acknowledge, 
beyond the current capacity.
    I think you can develop this. And if you put the rules--the 
rules are so critical, that you talked about. If there's an 
active effort not to just leave it all to the NGO or to the 
outside contractor, or to whatever entity, but to bring the 
Haitians into the process and rebuild sufficiently, you create 
wealth, you create confidence, you begin to build that future 
that we're looking at.
    Otherwise, I think--what Senator Dodd said--we're just 
going to buy into a kind of diminishing sense of urgency, a 
diminishing focus of attention, and ultimately wind up in the 
same unsustainable situation that we have faced for the last 25 
years, as you know. You've been struggling with it.
    So, we're not going to let go of this. We're going to stay 
very focused. We're going to try to press this concept of how 
we're going to pull this together, because there is a 
willingness to put a lot of aid and effort into it.
    I think, you know, the best chance for Haiti--the best 
chance for Haiti, in all of the definitions that we have given 
it, in terms of the problem over the last 25 years--is to take 
this moment and create the kind of joint, internationally 
cooperative rebuilding effort that provides a sustainable 
Haiti. And I think that the key is to really get at that.
    We're going to talk with the administration about it. And 
we'll obviously have them up here at some point in the near 
term to talk about this. And then we look forward to following 
up with you.
    We will leave the record open for--if you don't mind--for 
about a week. And maybe some colleagues--we'll try not to 
burden you with any written questions, but I would like to 
build the record, with respect to some of the things that we 
weren't able to ask you publicly today.
    So, I thank you.
    Ambassador Dobbins. Senator.
    The Chairman. Yes.
    Ambassador Dobbins. Could I just say, it's refreshing to 
come up here and make a series of proposals and be told that 
we're not asking for enough. And it's refreshing to have that 
pressure coming from both sides of the aisle. I think this is a 
very hopeful sign.
    The Chairman. Well, appreciate that comment. We'll look 
forward to working with you very, very much.
    And I am absolutely convinced that unless we get this thing 
into a bigger coordinated concept, we're just buying into the 
same old, same old. And then, of course, everybody'll walk 
away. And that'll have an impact on failed states elsewhere, 
and other prospects elsewhere. So, I think that there's a 
uniqueness to this challenge. And hopefully we can take it in 
hand.
    Dr. Francois, I--if I don't get over there, they'll cut me 
off on the vote. So, I got to get over there. I apologize, 
profusely.
    So, we stand adjourned. And I thank you.
    [Whereupon, at 11 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


           Prepared Statement of Hon. Kirsten E. Gillibrand,
                       U.S. Senator From New York

    When a massive earthquake shook Haiti and its people on January 12, 
it left hundreds of thousands buried in rubble and an entire country in 
complete despair. Whenever people are suffering around the world, 
Americans have always been compelled to do what we can to help. It is 
who we are.
    We have poured in hundreds of millions of dollars in donations; 
sent teams of medical units and supplies to help bring relief; and 
dispatched thousands of troops to help the Haitian Government securely 
provide these supplies.
    I am proud of the response of our government, our nonprofits, our 
faith-based organizations, and our communities.
    I share this commitment to help the people of Haiti in the wake of 
this unspeakable tragedy. In an effort to make it easier for American 
citizens to donate to disaster relief, I cosponsored legislation, which 
has become law, to waive tax deduction limits on all charitable 
contributions to Haitian relief efforts.
    In addition, I urged President Obama to grant Temporary Protected 
Status (TPS) for Haitian nationals residing in our borders. I 
appreciate that the administration acted since the earthquake to 
quickly allow Haitians in the United States--to continue to be able to 
live in this country without fear of returning to a country ravaged by 
such devastation.
    While there are many urgent needs in Haiti, I believe that the 
United States must particularly focus its relief efforts on the 
children of Haiti. I worked with my colleagues in the Senate to call on 
the administration to ensure that the safety and well-being of Haiti's 
orphans are given top priority in U.S. relief efforts. I was pleased to 
see that the Department of Homeland Security responded to our call, 
announcing humanitarian parole for children who have been legally 
confirmed as orphans and were in process for an intercountry adoption 
to the United States.
    In order to unite Haitian orphans with prospective American 
families while ensuring that children with existing Haitian families 
are not mistakenly taken from Haiti, I urged the administration to work 
with the families and the licensed adoption agencies in Haiti and the 
United States to complete all of the appropriate vetting as quickly and 
as carefully as possible. I also joined my colleagues in requesting 
Secretary Napolitano to work quickly to expand humanitarian parole to 
orphans in Haiti that have close family members in the United States. 
Finally, I have called for a moratorium on external debt that Haiti 
owes to the InterAmerican Development Bank. In the aftermath of the 
worst earthquake in Haiti in more than two centuries and with the world 
community focused on bringing the Carribean nation immediate relief and 
reconstruction efforts, Haiti must not be saddled with repaying its 
outstanding multilateral debt in the foreseeable future. As President 
Clinton, the U.N. Special Envoy for Haiti, has said, Haiti made a good 
beginning and was closer than ever to securing a bright future before 
the earthquake. Despite this tragedy, President Clinton still believes 
that Haiti can succeed. We all stand in unity with the Haitian people 
and remain hopeful that their country will recover, succeed, and 
overcome.
    The extreme loss of life and unimaginable hardship that many are 
experiencing from this disaster is heartbreaking and tragic. Many of 
these families have experienced far too much anguish already. My 
thoughts and prayers are with the families, both in the United States 
and in Haiti, affected by this disaster.
                                 ______
                                 

        Response of James Dobbins to Question for the Record by
                      Senator Robert P. Casey, Jr.

                              debt relief
    Question. Since 2007, the Inter-American Development Bank (IDB) has 
only provided grants to Haiti. Last year, the International Monetary 
Fund (IMF) and the World Bank forgave $1.2 billion in debt relief to 
Haiti. Haiti completed the Heavily Indebted Poor Countries (HIPC) 
program which triggered another wave of debt relief amounting to $62.7 
million by the Paris Club group of official creditors. However, Haiti 
still owes more than $1 billion in debt. In the case of the IDB, Haiti 
still owes $441 million.
    It is my understanding that the multilateral lending institutions 
are discussing ways limit Haiti's debt as a result of this catastrophe. 
In the 110th Congress, I introduced the Jubilee Act, which not only 
provided debt relief to some of the most indebted nations, but it also 
sought to stop predatory lending to these nations. Mr. Dobbins, what 
can the United States do, in concert with the international community, 
to ensure that Haiti does not emerge from this crisis heavily indebted 
once again? Do you believe this is the right time to call on Haiti's 
creditors to forgive the remainder of its debt?

    Answer. Under current circumstances, most if not all aid to Haiti 
should be in the form of grants. Loans should be considered only in the 
case of commercially viable projects which will result in a clear 
revenue stream capable of both amortizing the debt and maintaining 
whatever has been built. Donors providing grant assistance to Haiti 
should exercise their influence to insure that the Haitian Government 
does not undertake unnecessary or ill-considered financial commitments. 
Further debt forgiveness should certainly be considered as part of the 
international communities response to the Haitian earthquake.
                                 ______
                                 

  Prepared Statement of U.N. Human Settlements Programme, UN-HABITAT, 
          Submitted by Christopher W. Williams, Washington, DC

           phase one: emergency response to haiti earthquake
    On 14 January, UN-HABITAT (see institutional information below) 
together with other members of the Inter-Agency Standing Committee 
consolidated inputs from 12 International Organizations (IOs) and 24 
international nongovernmental organizations (NGOs) into the United 
Nations Flash Appeal. Specific proposals on shelter relief and recovery 
prepared by UN-HABITAT are incorporated in the Flash Appeal (see annex 
1). On 15 January 2010, the Secretary General established the United 
Nations Disaster Assessment Team (UNDAT) to undertake a rapid 
assessment of the needs in Haiti following the earthquake in Port-au-
Prince. Among the lead sectors, the United Nations formed the 
``Emergency Shelter and Non-Food Item Cluster.'' Representatives of UN-
HABITAT and 12 UNOs and NGOs under the leadership of the International 
Organization for Migration are in Haiti as part of the UNDAT.
    UN-HABITAT and other members of UNDAT are gathering information to 
adjust the Flash Appeal to realities on the ground. The agency is 
exploring coordination mechanisms and identifying opportunities for 
partnerships with Haitian officials, international organizations, as 
well as citizen groups that have emerged to address basic needs. The 
process is challenging given the intense demand for the affected 
population estimated to be over 500,000, the collapse of ports, IT, and 
road infrastructure. As part of UNDAT, the organization will next month 
consolidate the outcomes of the rapid assessment into a revised Flash 
Appeal.
                    phase two (a): shelter recovery
    The shelter recovery strategy advocated by UN-HABITAT is based on 
experience working in post-disaster situations in which 70 percent of 
affected population is living on less than $2/day. The organization 
seeks to ensure that the provision of housing is equitable, responds to 
the needs of those most vulnerable (informal settlements, displaced), 
and involves the affected communities in the rebuilding effort.
    Focus on Non-Displaced Populations: The shelter recovery strategy 
focus is on nondisplaced populations to assist those who want to 
rebuild housing in their former neighborhoods. Experience worldwide 
shows that people affected by disasters are keen to return to their 
homes as soon as possible to regain a sense of place, adjust to the 
psychological trauma of the disaster, and reclaim their lives.
    Self-Build and Re-use of Rubble: Despite the extent of devastation 
in an earthquake there is a surprising amount of reuseable materials 
that can be salvaged for the purposes of Haitians rebuilding their 
homes. Using rubble with earthquake-resistant technologies, the 
approach has proved highly effective when deployed elsewhere including 
by Pakistanis in the aftermath of the earthquake. The approach will 
provide a more durable solution that will resist rains and hurricane 
winds. It will avoid the logistical bottlenecks that Haitians may 
encounter if they rely solely on tents which may only arrive in great 
quantities at the beginning of the rainy season and won't hold up.
    Shelter Resource Centers: The establishment of shelter resources 
centers, also applied effectively in other post-disaster situations, 
including Pakistan, provide demonstration, information, and technical 
assistance. They also double as community centers and can be used by 
shelter partners for the distribution of nonfood items.
    Cash-for-Work: Haitians are in desperate need for cash as most 
forms of employment have been destroyed, yet most Haitians are able and 
willing to work. Cash-for-Work systems can be put into place for the 
collection of rubble, both for relocating rubbish and for salvaging 
materials for housing reconstruction.
    Building Material Support: Haitians can use salvaged materials but 
they will also need roofing and other select building materials to 
reconstruct housing. It will be important during the recovery period 
for the international community and Haitian organizations to purchase 
materials. Haitians can use the shelter resource centers to disburse 
the materials at a subsidized rate or on a ``material-for-work'' basis. 
A related challenge will be congestion at the ports. The United States 
could make this a priority and expedite the delivery of needed building 
materials, as it is doing to distribute food.
                 phase two (b): urban systems recovery
    The earthquake, having devastated the city of Port-au-Prince, is 
perhaps the world's largest urban humanitarian crisis. By its very 
nature it requires a comprehensive, urban systems management approach. 
This involves supporting simultaneously multiple delivery mechanisms 
including shelter, land, water, sanitation, urban safety, health and 
food. The challenge for recovery is coordination and identifying ways 
of managing expertise across various sectors in urban areas. UN-HABITAT 
views the first weeks following a disaster as crucial for supporting 
government and urban stakeholders to respond to the enormous urban 
rehabilitation effort. In practice this implies supporting government 
to convene stakeholders to ensure that the planning process is 
consultative and participatory, to invest heavily in coordinating the 
process, and to provide technical assistance for implementation.
                      phase three: reconstruction
    UN-HABITAT welcomes efforts in the coming weeks to organize 
consultations that bring together Haitians and the international 
community to consider ways to design urban development to transform not 
just Port-au-Prince but, more importantly, the wider economy of Haiti. 
An important proposal is investment Les Cayes and Cap Haitien as well 
as Port-au-Prince in seaports and free enterprise-zones that generate 
new manufacturing jobs. This would require substantial investment in 
infrastructure and housing, as well as job training and rapid skill 
development to support working people and their families. The 
development of multiple urban centers in Haiti will enable Haitians 
with support from the international community to reconstruct Port-au-
Prince as a more efficient, sustainable, and better serviced 
municipality, thereby reducing precarious settlements on hillsides.
                         institutional overview
    UN-HABITAT is the agency of the United Nations responsible for 
housing and urban development, and for assisting Member States to 
achieve Millennium Development Goal Target 11 (on slum improvement), 
and Target 10 (on water and sanitation in cities). There are an 
estimated 1 billion people living in informal settlements and slums. 
The United Nations estimates that at current rates of growth, there 
will be 2 billion slum dwellers by the year 2030. Simply stated, one in 
three of humanity will be living in urban slums.
    With headquarters in Nairobi, Kenya, UN-HABITAT maintains field 
operations in 87 countries managed by regional offices in Japan (Asia 
and Pacific), Brazil (Latin America and the Caribbean), Poland (Eastern 
Europe), Kenya (Africa/Arab States), and Habitat Program Managers in 40 
country offices through a cooperation agreement with its sister agency, 
UNDP. The organization is a member of the U.N. Chief Executive Board, 
Inter-Agency Standing Committee of Humanitarian Agencies, United 
Nations Development Group, Commission for Africa, WHO Commission for 
Social Determinants of Health, and the Commission for the Legal 
Empowerment of the Poor, among others.
    UN-HABITAT advances shelter and urban development strategies by 
providing policy advice, technical assistance, and credit enhancements 
to governments, municipal authorities, private companies, and NGO/CBO 
partners in a wide range of countries. These include emerging market 
economies such as Brazil, Russia, India, China, and South Africa, as 
well as low-income and very-low-income countries in Africa, Asia, and 
Latin America. The organization also works with countries in conflict, 
post-conflict and post-disaster situation in Iraq, Afghanistan, 
Pakistan, Liberia, Sudan, tsunami-affected Asian countries, West Bank 
and Gaza with a combined project portfolio of $800 million. The 
Governments of Japan, Sweden, Norway, Spain, Bahrain, Italy, Canada, 
and the United States provide annually both general and special purpose 
support.
                        humanitarian assistance
    UN-HABITAT is principal member of the Inter-Agency Standing 
Committee for humanitarian operations (IASC) chaired by the Office of 
the Coordinator of Humanitarian Agencies (OCHA). It serves as the lead 
agency for the Housing, Land and Property (HLP) cluster and is 
currently supporting an initiative of the IASC to develop a strategy 
for enhancing humanitarian assistance in urban settings. In emergency 
situations it supports the efforts of the international community to 
identify appropriate strategies for shelter recovery and urban land and 
service delivery systems. The organization maintains an active network 
of experts from diverse backgrounds who it calls upon to support relief 
and recovery efforts in emergency disaster situations. Of particular 
relevance to ongoing crisis in Haiti is the response strategy deployed 
by the UN-HABITAT in Pakistan in the aftermath of the earthquake.
                                 ______
                                 

 Prepared Statement of The National Haitian America Elected Officials 
 (NHAEON) Submitted by State Representative Marie St. Fleur, Boston, MA

                              introduction
    The National Haitian American Elected Officials Network (NHAEON) is 
a nonpartisan coalition determined to improve relations between the 
United States and Haiti. NHAEON is committed to bringing a renewed 
national and local focus to key legislative, diplomatic, security, 
economic, and human rights issues that impact Haiti. There are 21 
Haitian-American elected officials in NHAEON representing six states--
Florida, Illinois, Massachusetts, New Hampshire, New Jersey, and New 
York. NHAEON, in collaboration with the National Organization for the 
Advancement of Haitians (NOAH), submits the following request for 
coordinated and substantive Haitian-American involvement in the Haiti 
Relief Effort.
                               background
    An earthquake of 7.0 magnitude hit Haiti on January 12, 2010. Its 
epicenter was primarily in the capital, Port-au-Prince. Nevertheless, 
the devastation caused by the earthquake and its ensuing aftershocks 
stretch well beyond Port-au-Prince. Carrefour, Delmas, Petionville, 
Leogane, Croix-des-Bouquet, Jacmel and other nearby cities/towns have 
all sustained tremendous damages. The Haitian-American community thanks 
President Obama and Congress for the leadership shown in response to 
this tragedy. Our government's swift, focused and unequivocal support 
for the Haitian people and its commitment to provide relief have set 
the tone for this international emergency relief operation. As well, 
the Haitian-American community appreciates the authorization of 
Temporary Protective Status (TPS) for undocumented Haitians currently 
in the United States. Those who are benefiting from TPS will not only 
be able to work but they will also be able to send some remittances 
back to Haiti to help their families.
    As Haitian-Americans Elected Officials who represent significant 
constituencies, many of whom are of Haitian descent, we offer this 
testimony in support of the three following principles:
    1. The Sovereignty of the state of Haiti must be recognized and 
protected. We recognize that the governance of Haiti is not very 
strong. However, the Government of Haiti is a recognized and 
democratically elected body. We categorically oppose the concept of a 
receivership for the state of Haiti. We believe that our American 
Government must play a significant role in accompanying the Haitian 
Government in its journey to build a stronger and much more predictably 
functioning state apparatus and to rebuild the country. American 
ingenuity and determination, properly directed, will allow us to chart 
a course that will support the strengthening of democratic 
institutions. We know strengthening democratic institutions can be 
realized by directing technical and financial support with clear 
measurable goals and objectives (i.e., the role of Partners In health 
and the Inter-American Development Bank). The United States is 
particularly well-suited to help Haiti because it is home to the 
greatest number of Haitian professionals across all disciplines. These 
Haitian-Americans are passionate about Haiti and ready to actively 
participate in setting forth the vision of a rebuilt-Haiti and the 
implementation of that vision. As well, we, as Haitian-Americans have 
the direct connections with Haiti, we are connected culturally, 
linguistically and in many case, we have a financial stake in getting 
the rebuilding of Haiti right.
    2. The allocation and distribution of foreign aid must be reformed 
so that it is also aligned with supporting building capacity in the 
state of Haiti and its civil institutions. Given the emergency 
situation that exists on the ground in Haiti, we respectfully request 
that Foreign aid be distributed directly to or through the Haitian 
Government with clear objectives and accountability measures to support 
the capacity of its ministries and departments. Such an approach will 
strengthen the functional capacity of ministries such as the Ministry 
of Health, Education, Transportation, Energy, Environment and others. 
In addition to the ministries, there is a governmental system in place 
that includes the heads of the 10 departments of the country, the 
mayors of the various municipalities and, among local elected 
officials, there are azecs and kazecs that serve the population as 
recognized elected officials. The full utilization of this existing 
system makes distribution of relief much more efficient and will 
strengthened these institutions as we move forward toward 
reconstruction.
    3. The People of Haiti and Haitian-Americans must have an integral 
role in the recovery and rebuilding of Haiti. There are approximately 
2.5 million Haitians and Haitian-Americans who were born in Haiti, 
living here in the United States of America. This group has sired 
approximately 5 million Haitian-Americans born in the United States. 
Haitian-Americans are appreciative of the enormous outpouring of 
support from our American Government and our fellow Americans for the 
people of Haiti. We are proud of the role that our Armed Forces and 
medical professionals are playing on the ground to assist the 
devastated people of Haiti. However, Haitian-Americans grow 
increasingly frustrated watching the continual deterioration of an 
already devastated country without access to direct avenues for their 
time and talent to mitigate the suffering of the Haitian people and to 
help with the recovery of Haiti. Therefore, we respectfully ask for 
inclusion as a direct partner in the planning now underway for the 
recovery and rebuilding of Haiti.
    Thank you for the opportunity to offer written testimony on The 
Haiti Relief and Rebuilding Effort. Our actions in this moment is 
critical to the future of the state of Haiti, many of our families 
there and the quality of life for many of our constituents here in the 
United States.
                                 ______
                                 

      Prepared Statement of International Housing Coalition (IHC),
                             Washington, DC

    The International Housing Coalition (IHC) has been monitoring the 
situation in Haiti with a particular focus on the impacts of the 
disaster on housing and critical residential infrastructure. The 
situation is desperate, as we all know, and efforts are now rightly 
focused on immediate relief, life-saving medical care, critical food 
and water, and security. At the same time, the enormous destruction to 
Haiti's housing stock threatens not just the immediate health and well-
being of the population, but the country's long-term social and 
economic viability. Experience around the world shows that the post-
disaster rescue phase quickly morphs into recovery and then 
reconstruction. This process will happen in Haiti with or without the 
support of the international community and a comprehensive 
reconstruction plan.
    The U.S. Government (USG), along with other parties, has a critical 
role to play in making reconstruction resources available quickly. 
These resources must be used in a strategic way to steer the 
reconstruction process in a positive direction. They must be used 
equitably and efficiently to shelter families and reestablish 
communities in ways that enhance their resistance to future natural 
disasters.
    More than a million Haitians are homeless and many more are living 
in unsafe compromised structures. Shelter is a precondition for 
economic development, health, and security, and investments in other 
sectors are compromised when recipients lack safe and secure shelter. 
The importance of shelter cannot be overstated given the physical and 
psychological toll that the earthquake has taken on the population in 
and around Port-au-Prince.
                          ihc recommendations
<bullet> Establish a Reconstruction and Development Authority to 
    oversee and coordinate reconstruction efforts. The USG should 
    support the immediate creation of a redevelopment authority for 
    greater Port-au-Prince. The authority would develop a 
    reconstruction strategy and implementation plan. It would manage 
    and disburse redevelopment funds for housing and basic 
    infrastructure (e.g., local roads, storm water drainage, water 
    reticulation, and sewerage). It would be in a position to pool 
    funds from the United States and other donor agencies to maximize 
    impact, coordinate shelter construction with infrastructure 
    provision, and build linkages between reconstruction and local 
    investment. It would promulgate and monitor minimum standards for 
    construction. Successful housing reconstruction requires effective 
    public administration and management. Areas not suitable for 
    reconstruction should be identified and mapped quickly, before 
    informal reconstruction gains traction and residents should be made 
    fully aware of these restrictions as soon as possible.
<bullet> Ensure that assistance is accessible and provides appropriate 
    incentives to residents of all income levels to rebuild and improve 
    their homes. Given the scale of the disaster and the resulting 
    housing deficit, rebuilding must utilize the full range of local 
    resources and institutions in addition to internationally provided 
    support. As a practical matter most housing will be provided by the 
    homeowners themselves and much of this will involve the incremental 
    rebuilding of remaining structures or improvement of the temporary/
    transitional shelter received in the early days of the relief 
    effort. Assistance for home reconstruction must provide creative 
    incentives for families and others to build using materials and 
    techniques that increase resistance to future disasters, while 
    still providing opportunities for small-scale builders, for self-
    help construction, and for efforts by community groups and 
    cooperatives.
<bullet> Ensure that housing and infrastructure reconstruction efforts 
    support and enhance local economic development. Employment 
    generation should be an explicit objective of the rebuilding 
    process in order to increase household income and thereby stimulate 
    consumer demand and production.
                                 ______
                                 

 Prepared Statement of Habitat for Humanity International Submitted by 
Chris Vincent, Director, Congressional Relations/International Affairs, 
                             Washington, DC

                               background
    Habitat for Humanity International (HFHI) was founded in 1976 as a 
nonprofit, ecumenical Christian housing ministry. Today Habitat 
operates in 94 countries, has about 2,400 registered affiliates, and 
has built nearly 300,000 houses worldwide, providing simple, decent, 
and affordable shelter for more than 1.5 million people. HFHI is one of 
the most recognized, well respected, and largest charities in the 
United States, and the premier not for profit organization focused on 
affordable housing. For more information, visit www.habitat.org.
    The mission of HFHI Disaster Response program is to develop 
innovative housing and shelter assistance models that generate 
sustainable interventions for people vulnerable to or affected by 
disasters. As a result of lessons learned in responding to major 
disasters for more than 10 years, such as the Asia tsunami and 
Hurricane Katrina, Habitat has developed disaster response systems that 
enhance its capacity to respond to disasters. Habitat employs these 
systems to monitor emergencies, to perform needs assessments, and to 
design programs for sheltering and housing recovery. Disaster Response 
also builds the capacity of the global Habitat community in the areas 
of disaster mitigation, preparedness, and recovery through education, 
training, and partnerships.
    HFH Haiti has been assisting vulnerable people with their shelter 
needs since 1982 through various types of housing support. Support has 
included basic shelter loans, increasing access to materials, providing 
technical assistance and vocational training through its innovative 
USAID-funded Building and Training Center project, teaching financial 
literacy, helping families to rebuild post-hurricane devastation, and 
promoting disaster-resistant shelter options.
                 habitat for humanity's haiti response
    A Disaster Response Assessment Team (DRAT) of regional and disaster 
response experts from Habitat for Humanity International (HFHI or 
Habitat) is currently in Haiti working with local Habitat staff to 
assess local capacity, reestablish operations, and carry out an 
assessment of damage to the shelter sector. The extent of the damage is 
yet to be tallied, but early estimates are of 1.5 million people 
homeless as a result of the earthquake. This is at least five times the 
magnitude of the 2008 hurricane.
    HFHI is closely coordinating its disaster response with both 
multilateral and private agencies. Recent meetings include daily 
meetings in Port-au-Prince of the UN-OCHA sponsored Shelter Cluster led 
by IOM; daily calls with USAID; participation in the Shelter and Water/
Sanitation strategy session at the Clinton Global Initiative meeting on 
January 19, 2010, in West Palm Beach, FL; and coordination with other 
INGOs including the American Red Cross, CARE, CHF, World Vision, and 
others. A common recurring theme is how to meet immediate shelter needs 
while transitioning to recovery, reconstruction, and mitigation of 
future disasters--``building back better.'' This focus is very aligned 
with Habitat's multiphased strategy.
    Habitat's strategy offers immediate, transitional, and long-term 
solutions for decent, affordable shelter. The size of Habitat's 
commitment depends upon fundraising efforts currently underway. 
Following the 2006 tsunami in Asia, Habitat raised $78 million and 
served 25,000 families with shelter assistance.
Habitat for Humanity will have three primary phases of work in Haiti
    Phase I--Early recovery starter kits. The kits are designed to help 
families make immediate repairs or construct emergency shelter. 
Materials in the kit include a bucket, tarpaulin, wire, rope, pry bar, 
mason's chisel and trowel, gloves, nails, hammer and saw. The kits will 
be distributed by Habitat employees and partners with distribution 
beginning as early as this week.
    Phase II--Rehabilitation and cleanup. Habitat will mobilize people 
to remove debris, salvage materials that can be reused, and assist in 
rehabilitating homes that can be repaired. These activities could 
include a ``cash for work'' component providing local, able-bodied 
people with the tools and means to help with the recovery and earn a 
small amount of money for meeting other basic needs.
    Phase III--Reconstruction and recovery, including Core homes/
Transitional shelters. Habitat plans to replace destroyed homes using a 
transitional shelter model, rebuilding in a way that reduces risk and 
improves construction quality. These houses can be added to over time, 
providing an immediate solution along with the beginnings of a 
permanent home. The core transitional shelter unit will adhere to 
international Sphere standards, with living space for the average 
Haitian family of five.
    Additionally, Habitat plans to implement its recovery project 
through Habitat Resource Centers that provide technical assistance and 
support to restoration of the construction sector as well as direct 
housing production. Habitat Resource Centers support housing 
development and improvements, identifying gaps in the local supply of 
housing materials, designs, finance and skills and addresses them in 
ways that support local livelihoods. Throughout, Habitat will cultivate 
partnerships with local residents and other humanitarian organizations 
that can multiply the effectiveness of its response. Habitat is looking 
into ways to stimulate the low-income housing sector longer term, such 
as technical support and loans to small enterprises, and development 
and local production of construction materials.
    Habitat is also looking for funding to collect baseline data into a 
Geographic Data System, combining satellite photos and field data to 
help identify immediate shelter interventions, monitor their 
implementation, and gather information for later phases of recovery on 
land availability/tenure and disaster risk mapping.
                            recommendations
<bullet> Transitional Shelter: USAID should shift the policy focus from 
    temporary to transitional shelter as the preferred intervention. 
    Temporary shelter costs are substantial and the money often does 
    not translate into an investment for the affected individuals; by 
    contrast, transitional shelter costs are comparable to temporary 
    shelter costs and constitute an investment. Additionally, there is 
    a capacity-building potential of transitional shelter, supporting 
    expertise in the local population and potential for local 
    employment. Thus, the USG should work to focus time and attention 
    on the issue of transitional shelter, working to ensure that when 
    possible resources are not wasted building temporary encampments 
    that will remain for years to come, but that resources are spent 
    working to create transitional shelter solutions that will allow 
    families to remain as close as possible to their community and 
    invest in shelter solutions for the long term.
<bullet> The USG should ensure that when relocation of affected 
    families is necessary, the relocations are located in stable 
    locations as close to the affected areas as possible and within 
    natural or expected growth corridors.
<bullet> Housing Expertise: Housing will be a major focus of the 
    rebuilding effort over the long term and the U.S. Government should 
    build the overall capacity and expertise on shelter and housing 
    within USAID, the State Department and other agencies responding in 
    Haiti. With U.S. Foreign Assistance lacking a shelter and housing 
    focus to any significant degree on an ongoing basis, enhancing 
    current staff and expertise will be essential. More specifically, 
    USAID needs added capacity to support transitional shelter 
    initiatives--both in Haiti and in general disaster planning and 
    mitigation.
<bullet> Funding for Permanent Housing: Given USAID lacks a program for 
    housing, any funding appropriated by Congress for Haiti focusing on 
    the long-term needs must include specific language to ensure 
    funding for programs to support transitional shelter and housing 
    solutions.
<bullet> Partnerships: The USG should encourage NGO cooperation and 
    coordination and specifically encourage partnerships to leverage 
    NGOs with key core competencies with donors and NGOs with existing 
    funding to ensure that quality implementation of programming.
<bullet> The USG should develop a sustainable reconstruction strategy 
    for rebuilding Port-au-Prince that recognizes that the most 
    vulnerable families have been located in high hazard zones. These 
    areas should be rezoned to preclude residential construction and 
    that rehousing of permanently displaced families considers 
    livelihood opportunities.
<bullet> Material Donations: The USG should work with the Haitian 
    Government and U.S. NGOs to ensure coordinated and equitable access 
    to points of entry for material donations to support 
    reconstruction, ensuring that supply chains are as effective, 
    efficient, and low-cost as possible.
                                 ______
                                 

  Prepared Statement of InterAction, A United Voice for Global Change

    Two weeks after a terrible earthquake rocked the Haitian capital 
and surrounding areas, aid continues to pour into the country and 
increasingly is reaching those in need. Despite huge challenges, 
humanitarian access is improving daily. In support of the Haiti 
response, InterAction members--U.S. nonprofit humanitarian and 
development organizations, often referred to as U.S. NGOs--have 
collectively received an outpouring of donations from the public--
totaling over $350 million as of Monday, January 26, with the number 
expected to rise in the coming weeks. NGOs in the InterAction network 
have several thousand staff on the ground responding to needs. In 
typical NGO fashion, the vast majority of these staff are Haitian 
nationals. The situation that these staff are confronting is profoundly 
challenging, with conditions on the ground changing day by day.
                        interaction ngo response
    Over 82 InterAction members are responding to the needs. Examples 
of the efforts of humanitarian response professionals include:

  <bullet> Within 8 days of the disaster, one InterAction NGO had 
        opened a new field hospital in Carrefour. The hospital 
        initially had 17 emergency and medical staff providing primary 
        care and emergency surgery. Another member supported the 
        medical treatment of 2,200 people in Leogane 4 days after the 
        initial earthquake. Another NGO has reached nine geographic 
        areas by partnering with the U.N.'s health cluster.
  <bullet> Within 48 hours, one member had activated USAID's Supply 
        Chain Management System (SCMS) project team in Haiti which 
        began shipments of emergency medicines and supplies to Port-au-
        Prince Hospital. As of January 19, more than 40,000 pounds 
        (18,000kg) of medicines and emergency medical supplies from 
        warehouse stock had been distributed.
  <bullet> Several members are providing psychosocial support for 
        children.
  <bullet> One member has distributed emergency shelter materials and 
        tents to hundreds of people. It plans to work with local 
        Haitians to rebuild structures destroyed in the quake.
  <bullet> In one InterAction member's Dominican warehouse, Haitian 
        University students are working side by side with local youth 
        groups, former street children, and NGO staff to prepare much-
        needed food and hygiene kits for survivors.
  <bullet> One member has a well-established office in the Dominican 
        Republic which is proving invaluable to facilitating the 
        administration and staffing of food and supply distributions at 
        relief centers.
  <bullet> Another InterAction NGO has been able to leverage over a 
        decade of experience working with local staff in rural areas in 
        Haiti and good connections with local authorities and 
        communities to transition its development program into 
        emergency relief activities.
                        situation on the ground
    Everything must be brought to Haiti through the airport and port, 
or by road from the Dominican Republic. In the first week of the 
disaster, the airport was inundated with supply and personnel planes 
for the U.S. military and humanitarian agencies--causing a logistical 
bottleneck. The airport congestion has been ameliorated and the number 
of planes landing has increased but the demand remains much greater 
than the airfield's capacity to receive and discharge aircraft. Access 
to Port-au-Prince by ship was almost completely cut off and has only 
recently been partially restored with differing reports of its current 
capacity ranging from 10-40 percent. The extensive destruction of 
infrastructure, particularly roads, continues to make access to the 
affected population especially challenging.
    After dealing with the immediate tragedy of staff losses and the 
need to locate the lost family members of staff, the NGOs on the ground 
faced further logistical problems due to shortages of funds and 
available cash. Over the last 2 weeks some banking services have 
resumed and fuel is available at many gas stations, but other needs for 
basic services continue; the most urgent priorities are water, food, 
health care, and shelter. While urgent surgical needs are decreasing, 
post operative care is an important concern. In addition, experts have 
estimated that there are currently approximately 63,000 pregnant women 
in Port-au-Prince, and 15 percent of them are likely to face life-
threatening complications. This week attention has increasingly turned 
to the need to provide shelter for the approximately 1 million Haitians 
left homeless by the disaster. On Monday, the U.N. Office for the 
Coordination of Humanitarian Affairs (OCHA) reported that the U.N.'s 
International Office on Migration (IOM) has requested tents for 250,000 
families. While these will provide immediate relief once they arrive 
and are erected those housed in tents will remain vulnerable in the 
upcoming rainy and hurricane seasons. Conversations have begun among 
the NGOs and with USAID and the U.N. about the need for transitional 
shelter.
                            child protection
    A priority for the U.S. NGO response includes the plight of 
children who have become separated from parents or unaccompanied or 
orphaned as a result of the earthquake. InterAction continues to stress 
that international adoption should not be the first response to helping 
protect and care for vulnerable children. Following the immediate 
provision of life-saving assistance to children, it is critical to 
identify and protect extremely vulnerable children from situations of 
potential exploitation or abuse. Tracing family members and reuniting 
children with existing relatives is the best solution for vulnerable 
children in post-crisis situations. It is extremely difficult to 
determine whether children truly are orphans in many cases, and it 
often takes considerable time to fulfill the legal requirements for 
adoption of both the United States and the child's country of origin. 
(For more information, visit the InterAction Web site: http://
www.interaction.org/article/international-adoption-and-haiti-after-
earthquake.)
                   u.n.-u.s. government coordination
    A high level of coordination between U.S., international and 
military actors is critical to meeting the array of challenges on the 
ground. Throughout the last 2 weeks both the U.S. Government and the 
U.N. have given coordination between their official efforts and the 
NGOs top priority. In Haiti, the U.N. cluster system was activated 
within a week of the disaster; 12 clusters focusing on camp 
coordination and management, education, shelter, food, logistics, 
nutrition, protection, water and sanitation (WASH), agriculture, early 
recovery, emergency telecommunications, and health are serving as the 
internal coordination mechanism for the U.N./NGO effort. The clusters 
are holding regular meetings to coordinate their joint efforts. To 
support response efforts, six clusters have been mobilized in the 
Dominican Republic. Furthermore, InterAction has been in close 
communication with the office of the U.N. Special Envoy to Haiti, 
former President Bill Clinton. On the U.S. Government side, USAID--
through the leadership of USAID Administrator Rajiv Shah and its Office 
of Foreign Disaster Assistance (OFDA)--has provided NGOs with superb 
access and support at the highest levels. Within a few days of the 
disaster, USAID approved funding to support the establishment of an NGO 
coordination cell in Port-au-Prince. InterAction is partnering with the 
Geneva-based International Council of Voluntary Agencies (ICVA), to 
stand up and staff this coordination cell. To further improve 
coordination between the NGO community and the U.N., the cell will be 
colocated with the U.N. coordination office staffed by OCHA. These 
humanitarian professionals will free up emergency responders to focus 
their energies on saving lives and helping people.
                         military coordination
    InterAction applauds President Obama's appointment of the USAID 
administrator as the official emergency response coordinator. While the 
military is providing critical logistical support in Port-au-Prince by 
repairing the port and providing airlift capacity and protection for 
humanitarian operations, the President has recognized that the civilian 
agencies have the necessary expertise and experience to guide the U.S. 
response. Military from the United States and Canada are supplementing 
the efforts of the U.N. peacekeeping mission in Haiti (MINUSTAH) to 
provide much-needed security for relief distributions. Last week, it 
was reported that tens of thousands of MREs (meals-ready-to-eat) and 
rations of water were distributed to desperate earthquake victims at a 
golf course inside Port-au-Prince. This is but one of the numerous 
examples where the lift capacity of the U.S. military combined with 
U.S. NGO logistical and staff capacity on the ground to move urgently 
needed relief.
                            long-term needs
    As media attention moves on from Haiti in coming months, it is 
imperative that the United States and the broader international 
community do not forget the country's reconstruction and long-term 
development challenges. We applaud the commitment of the administration 
to seek necessary funds from the Congress. Close collaboration between 
OFDA and the USAID mission in Haiti will be needed so that emergency 
response efforts dovetail as seamlessly as possible with recovery and 
long-term development activities. There are positive signs that this 
collaboration is already beginning. The large Haitian-American 
community will no doubt provide much-needed human and technical 
expertise in the longer term NGO effort. The overarching NGO objective 
is to engage local civil society in an effort to build long-term 
capacity of local institutions. This will be critically important in 
securing Haiti's future development.

                                  <all>

</pre></body></html>
